 THE OFFICE OF COMMUNITY
ORIENTED POLICING SERVICES
METHAMPHETAMINE INITIATIVE
      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 06-16
            March 2006
                  THE OFFICE OF
       COMMUNITY ORIENTED POLICING SERVICES
           METHAMPHETAMINE INITIATIVE

                        EXECUTIVE SUMMARY

       In FY 1998, under the authorization of the Violent Crime Control and
Law Enforcement Act of 1994, Congress established the Methamphetamine
(Meth) Initiative in the Department of Justice (DOJ) and assigned
responsibility for administering the program to the Office of Community
Oriented Policing Services (the COPS Office). The primary purposes of the
Meth Initiative are to combat the production, distribution, and use of this
illegal drug by issuing grant funding to state and local law enforcement
agencies for uses such as training and equipment, and to reimburse the
Drug Enforcement Administration (DEA) for the proper removal and disposal
of hazardous materials from clandestine meth laboratories. From the
inception of the program through the end of fiscal year (FY) 2005, Congress
appropriated $385.6 million for the Meth Initiative, $214.1 million of which
was appropriated for grants to state and local entities.

      The Office of the Inspector General (OIG) has completed this audit of
the COPS Meth Initiative. The objectives of the audit were to evaluate:
(1) the adequacy of the COPS Office’s administration of meth grant
programs and its monitoring of grantee activities; and (2) the extent to
which grantees have administered the grants in accordance with applicable
laws, regulations, guidelines, and terms and conditions of the grant awards.
See Appendix I for additional details of our audit regarding objectives,
scope, and methodology.

Background

       Meth is currently the most prevalent manufactured drug illegally
produced in the United States. It is powerfully addictive, and the drug is
made easily in clandestine laboratories with relatively inexpensive over-the-
counter ingredients such as cold tablets, fertilizer, acids, acetone, alcohol,
lithium from batteries, and phosphorous from road flares, and its use and
production is increasing. The meth problem became widespread in the early
1990s in the Southwest and Western states, and since then has spread
across the country. Typical meth users are in their 20s and 30s, have young
children, and represent all social and economic backgrounds. Long-term
meth use can lead to paranoia, convulsions, stroke, heart attack, and death.
      In FY 1997, the DEA’s El Paso Intelligence Center (EPIC) began
tracking statistics about the number of meth labs seized by law
enforcement. 1 According to data provided to the OIG by EPIC, the number
of clandestine laboratory seizures reported nationwide has increased from
3,441 in FY 1998 to 17,956 in FY 2004, an increase of 422 percent. In
FY 2002, EPIC started to track the number of children affected by their
proximity to the meth labs. The 50 states and the District of Columbia have
reported about 3,500 children per year as being affected. According to the
DEA, children have died or suffered injuries due to fire and explosions at
meth lab sites and have been injured by swallowing or touching toxic
chemicals.

       Every year since 1998, Congress has funded the Meth Initiative under
a variety of names such as the Meth Program or the “Meth/Drug Hot Spots”
Program. Between FYs 1998 and 2005, Congress appropriated
$385.6 million for these programs. Of this total, the COPS Office transferred
almost $125 million to the DEA (mostly for laboratory cleanup), reimbursed
the Office of Justice Programs (OJP) a total of $46.6 million for several Meth
Initiative grants it administered on behalf of the COPS Office, and distributed
the balance of $214.1 million to state and local entities through the grant
process. The grants support a variety of prevention, enforcement,
intervention, training, and laboratory/environmental cleanup activities by
state and local law enforcement agencies. The grants provide funding for
the payment of approved salaries, overtime, and benefits for support
personnel; approved overtime for law enforcement officers; equipment and
technology; training; and travel.

      The following chart illustrates the proportion of funding provided to the
three components.




       1
         EPIC, created by the DEA in 1974, relies on state and local law enforcement
agencies to report voluntarily their statistics for inclusion in its National Clandestine
Laboratory Seizure database. However, only three states – California, Missouri, and
Oklahoma – have mandatory reporting requirements of their statistics.


                                             - ii -
                            DISTRIBUTION OF METH FUNDING
                               FY 1998 THROUGH FY 2005


                                             OJP
                                       $46,558,463 , 12%




                 DEA
           $124,963,413 , 32%




                                                                COPS
                                                           $214,115,341 , 56%




           Source: The COPS Office

       Most of the money that the COPS Office receives comes in the form of
congressional earmarks. An earmark refers to funds designated by Congress
for a specified purpose, project, activity, institution, or location. Congress has
designated approximately 84 percent of appropriated Meth Initiative funds to
specific entities or locales for the past 8 years. Earmarked funds do not
require projects to be vetted for duplication, necessity, fiscal accountability, or
any other factor normally reviewed by a granting agency through the
solicitation and selection process.

Implementation of the Meth Initiative

      Our audit revealed weaknesses in the COPS Office’s administration of
the Meth Initiative. COPS officials told us that the FY 1998 appropriation for
the Meth Initiative was unexpected, and at that time they did not anticipate
any future funding for the program. The COPS Office formed a Meth Team
under the Grant Administration Division to monitor the majority of meth
awards to grantees that were not covered by its existing structure. The
Training and Technical Assistance Division and the Program, Policy Support,
and Evaluation Division administered the remaining awards. Assignment of
grants among these units was dependent upon the type or purpose of the
award. As a result, three separate and distinct organizational units within
the COPS Office processed the first Meth Initiative awards. We interviewed
representatives from each of the COPS Office’s organizational units who told
us that each oversight group acted independently. There has been no
regular communication among the various units to foster uniform

                                         - iii -
administration of the meth awards or to share information on matters such
as policies, procedures, concerns, and best practices. In addition, there has
been no regular communication between OJP and the COPS Office regarding
the administration, monitoring, or oversight of the Meth Initiative grants that
the COPS Office transferred to OJP.

Discretionary Funding

      Although Congress earmarked the majority of Meth Initiative funding,
the COPS Office also administers some discretionary funds for meth
programs. Discretionary funds provide the COPS Office the authority to
designate both the recipient and the amount of the awards within the
amount of discretionary funding available. The amount of discretionary
funding available to the COPS Office from year-to-year has been limited and
has not been certain or predictable. Between FYs 1998 and 2005, total
discretionary funding amounted to almost $35.1 million and ranged from
zero to $20 million per year. The only year Congress specifically
appropriated discretionary funding to COPS was in FY 2002. Otherwise,
discretionary funding became available when earmarked entities refused
grant funds or their grant applications amounted to less than the amounts
stipulated by Congress.

      Because the COPS Office does not know if discretionary funding will be
available from year-to-year, officials wait until the conclusion of the
appropriation and the earmark award process to decide how discretionary
money will be used. In FYs 1998 and 1999, the COPS Office used the
discretionary monies to fund projects similar to the earmarked awards, but
the awards were not focused on any particular aspect of the meth drug
problem.

       Since FY 2002, the COPS Meth Team has implemented a more
disciplined approach and has attempted to focus discretionary funding on a
particular aspect of the meth problem every year. For example, in FYs 2002
and 2003, the COPS Office implemented the Drug Endangered Children
Project to focus funding on children affected by meth. This project had
multiple strategies, including the development of multi-disciplinary teams
from various social service areas, the development of protocols for children
found at meth sites, and the purchase of equipment. In FY 2003, the COPS
Office introduced the Pilot Container Storage Project to fund the acquisition
and use of approved hazardous waste containers (for seized meth and
precursor chemicals) to be strategically located throughout a state.

     The COPS Office’s recent actions to award discretionary funds are
more strategic and proactive than the passive approach taken for earmarked

                                     - iv -
awards. However, due to the uncertainty of discretionary funding there is no
ongoing, coordinated use of discretionary monies, and the bulk of available
funds have gone into different programs in the last several years. We
believe the COPS Office should consider a strategy for discretionary funds
that looks to the long-term and is more comprehensive than the short-term
approach used currently for discretionary funding.

Management and Administrative Controls

       The COPS Office’s management and administrative controls over Meth
Initiative grants are not adequate to ensure consistent and adequate
oversight of entities receiving funding. Our audit revealed deficiencies
related to the reliability of data available to COPS Office management,
computer security, monitoring and oversight, grant program progress
reporting, and grant closeout practices.

Data Reliability

      The COPS Management System (CMS) is the database that the COPS
Office uses to manage and track grants through their life cycle. Early in our
audit, we asked the COPS Office to provide a listing for all Meth Initiative
grants awarded from the inception of the program in FY 1998 through
FY 2004. The COPS Office provided a listing generated from the CMS. Our
review of this initial universe revealed that it contained numerous material
errors and omissions. For example, the COPS Office had omitted at least six
grants from the list, many grant descriptions were missing, award amounts
were incorrect, and one open grant was identified as closed. We brought
these discrepancies to the attention of officials in the COPS Office, and they
subsequently provided a new listing. However, we continued to identify
errors and omissions, and thus repeated this process several times during
the course of the audit.

      In consultation with COPS Office officials, we attempted to identify the
extent of the discrepancies and determine why the errors persisted. We
found that, in general, the controls over the CMS were inadequate or
non-existent. Specifically, we found: (1) lack of standardization in data
entry, (2) a CMS user’s manual that was relatively unknown and out-of-date,
and (3) lack of a policy requiring periodic review of grant data for accuracy
and completeness.

CMS Security Issues

     We also found that the CMS lacked controls related to system security.
Because the CMS is the primary system for the maintenance of information


                                     -v-
on COPS Office grants, this system should be protected to ensure system
integrity and reduce the risk of unauthorized access, modification,
disclosure, or loss. However, the COPS Office had not sufficiently restricted
users’ ability to overwrite data, and we found that 32 of 61 users with write-
access did not have a legitimate need for the level of access provided.
Additionally, the system does not leave a complete audit trail that tracks
record changes and the user that made them. We also found that the COPS
Office had not properly regulated the log-out practices of it employees. We
noted two instances where employees had remained continuously logged on
to the system for up to 8 months.

Monitoring and Oversight

      The COPS Office Grant Monitoring Division was created in 1998 to
perform site visits and review the activities of COPS grantees. However,
since FY 1998 only 9 of the 179 Meth Initiative grantees have received an
on-site visit by the COPS Monitoring Division. In addition, members of the
Meth Team had conducted on-site program reviews of 6 additional grantees
during FYs 2000 and 2002.

      Interviews with members of the COPS Meth Team revealed that their
methods of overseeing the grants on a day-to-day basis consisted of actions
such as telephone discussions with grantee officials; desk reviews of
submitted reports; and responding to e-mails, letters, and other
correspondence. Our review also found significant differences in the
guidance and oversight provided by the various grant specialists responsible
for the grants. In addition, formal guidance issued by the COPS Office has
been inconsistent and contradictory. For example, several grantees used
grant funds to purchase items such as furniture and vehicles, which are
generally prohibited by the guidelines the COPS Office issued for the
program. However, the COPS Office allowed these purchases because of the
grantees’ earmarked status. According to COPS officials, they did not
believe that they were in the position to disallow the expenditures.

       In addition, not all COPS grant managers provided grantees with the
manuals developed specifically for the Meth Initiative awards, and COPS
officials informed at least one earmarked grantee that it did not have to
comply with the guidance in the Meth Grant Manuals. Additionally, the
requirements regarding submission of program progress reports varied
between different types of grants, as well as among the COPS grant
managers responsible for administering the awards.




                                    - vi -
Program Progress Reporting

       Program progress reports are intended to describe information
relevant to the performance of grant objectives in a narrative fashion.
Program progress reports provide information on the status of funded
activities and the purchase and installation of equipment and technology.
The grant manuals for the Meth Initiative awards state, “Program progress
reports will be distributed on a periodic basis throughout the grant period.”
However, as noted previously, the COPS Office issued inconsistent
instructions on program progress reporting to various grantees. Moreover,
the COPS Office failed to gather adequate grant implementation information
because it did not require all grantees to report on their progress.

      We examined the COPS Office’s practices related to grantee reporting
of project implementation in a sample of 13 grantees and determined that
the COPS Office failed to obtain written program progress information from 5
grantees. For example, one grantee received 4 grants with award periods
lasting from 21 to 42 months between May 2001 and June 2005. However,
at the time we conducted our audit of this grantee in the spring of 2005, the
COPS Office had obtained only one program progress report. Similarly, for
another grantee the COPS Office received only one program progress report
even though the entity received 2 grants with award periods lasting from 23
to 29 months between May 2001 and June 2004. Without sufficient
documentation of grantee activities, the COPS Office cannot effectively
monitor the implementation of grant activities or grantee compliance with
grant conditions.

Grant Closeout Practices

      We reviewed the files of 267 Meth Initiative grants awarded between
FYs 1998 and 2004 and found that the COPS Office had only closed 36 of the
72 grants eligible for closure. The remaining 36 expired grants were
between 1 and 5 years past the award end date. In March 2005 we
examined the files for these 36 expired grants and determined that 16 had
$824,517 in funding that grantees had not utilized and the COPS Office
should have deobligated. The remaining 20 open, expired grants had no
unspent funds. According to COPS officials, this situation occurred because
closing grants had not been an agency priority until FY 2002. In addition,
the COPS Office does not have a written policy mandating prompt closure of
grants past their end dates.

      In November 2005, COPS officials informed us that they had taken
action to deobligate $324,149 from five of the expired grants with funds



                                    - vii -
available. In addition, they informed us that they had subsequently paid out
funds totaling $158,323 to three grantees.

OIG Audits of Meth Initiative Grant Awards

       In addition to our review of the COPS Office’s management of the Meth
Initiative, we also audited 44 individual grants totaling approximately
$56 million that the COPS Office awarded to 13 entities between FYs 1998 and
2004. 2 Our audits encompassed 16 percent of the total number of Meth
Initiative awards and 26 percent of the total funds awarded under the
program.

      We reviewed these grants to assess whether the grantees complied with
requirements regarding grantee financial reporting, grant drawdowns, and
budget management and control. Further, we determined if costs charged to
the grants were allowable, supported, and in accordance with applicable
regulations, guidelines, and terms and conditions of the grants. Based on our
reviews, we identified a total of $9,806,053 in dollar-related findings
(amounting to 17.5 percent of the $56.1 million in grant funds reviewed),
which included $9,523,622 in questioned costs and $282,431 in funds put to
better use, as illustrated by the following examples. 3

           •   Three of 13 grantees did not properly monitor expenditures by
               budget category and exceeded the 10-percent transfer allowance
               limitation without prior approval from the COPS Office. 4 Their
               failure to obtain prior approval for budget deviations in excess of
               10 percent of the grant resulted in $1,240,042 in questioned
               costs.

           •   In 10 of the 13 audits, we found $8,283,580 in grant expenditures
               that were either unsupported or unallowable. The bulk of these
               exceptions were due to grant expenditures for which the grantee

       2
        The OIG issued 13 separate grant audit reports to detail the results of our reviews.
See Appendix III for a breakdown of findings by audited grantee.
       3
          Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements; are not supported by adequate documentation at the time of the
audit; or are unnecessary or unreasonable. Questioned costs can be remedied through
offset, waiver, recovery of funds, or the provision of supporting documentation. Funds put
to better use are future funds that could be utilized more efficiently if management took
actions to implement and complete audit recommendations.
       4
         Grantees are required to obtain prior approval from the COPS Office to make
budgetary changes that cumulatively exceed 10 percent of the award. These changes may
be within a budget category, such as personnel, as well as between budget categories, such
as personnel and equipment.


                                          - viii -
               did not have adequate support, unallowable charges for salaries
               and equipment, and excess drawdowns.

           •   There were five instances amounting to $282,431 in which the
               grantee had excess funds in the budget that should be deobligated
               and put to better use. 5

      Our audits of individual Meth Initiative grants also revealed that some
grantees had not complied with essential grant requirements, as explained
below.

           •   Seven of 13 grantees either did not submit, or did not submit in a
               timely manner, reports of financial activity.

           •   Five of 13 grantees either submitted program progress reports
               late or did not submit these reports as requested.

           •   Three of 13 grantees did not maintain adequate controls over
               their accounting system and financial records.

           •   Two of 13 grantees did not maintain adequate inventory controls
               over several equipment items.

           •   Three of 13 grantees could not provide support that the awards
               had met their objectives, or were not adequately measuring
               project outputs, outcomes, and milestones.

Impact of Congressional Earmarks

       The COPS Office has taken limited actions towards executing the Meth
Initiative due to the restrictive nature of earmarked funds. As a result of the
significant use of congressional earmarks in the Meth Initiative, available
funding is not always directed to the areas of the country with the greatest
need, and because of the earmarks the COPS Office has been unable to fully
control the program. COPS also has not established overall goals and
measurements for the meth grant program to support the DOJ Strategic
Plan. Moreover, the COPS Office has not complied with the congressional
instruction to consult with the DEA to review earmarked grant proposals to
determine if the grants were warranted.

     COPS officials told us they do not possess the same latitude over the
earmarked funds as they do with discretionary grant programs. However,

       5
         A portion of these funds amounting to $134,729 is included in the previous
discussion of the COPS Office’s failure to close out grants in a timely manner.

                                          - ix -
since FY 2002 the congressional earmarks have included an instruction to
the COPS Office to scrutinize the proposed projects, consult with the DEA,
and award the funds if warranted. Nonetheless, the COPS Office has not
consulted with the DEA, and instead has awarded all of the earmarked funds
as directed by Congress.

      Further, the COPS Office has not strategically analyzed or assessed the
necessity or benefit of awarding funds to the earmarked entities. We
reviewed the distribution of funds from the inception of the program in
FY 1998 through FY 2004 and compared the level of funding to the number of
meth-related incidents reported to EPIC over the same period. We found that
although certain states with high numbers of reported meth incidents have
received significant funding through the Meth Initiative, other states with
similar levels of reported meth incidents have not received similar funding.
For example, California ranked first in the nation with 13,377 laboratory
seizures between FYs 1998 and 2004, and it received a total of $76.9 million
in Meth Initiative funding, placing it first in a ranking of states awarded funds.
In comparison, Texas ranked 10th in the number of seizures with 2,924 and
was awarded over $1.3 million, ranking it 23rd in the nation in funds received
from the Meth Initiative.

      Conversely, states with little or no reported meth seizures or arrests
have received considerable resources through the program. For example,
Hawaii reported only 90 seizures between FY 1998 and FY 2004, but received
$8.8 million, ranking fourth in dollars received. A comparison of the funds
awarded and the reported seizures appears in the following chart. 6




      6
         The states not shown on the chart had received no meth funds through FY 2004
and had few reported meth incidents.

                                         -x-
                          METH INITIATIVE FUNDS AWARDED
                         AND REPORTED LABORATORY SEIZURES
                              FY 1998 THROUGH FY 2004

           80,000,000
                                                                Grants Awarded        14,000
           70,000,000                                           Incidents Reported
                                                                                      12,000
           60,000,000

                                                                                      10,000
           50,000,000




                                                                                               Incidents
 Dollars




                                                                                      8,000
           40,000,000

                                                                                      6,000
           30,000,000


           20,000,000                                                                 4,000



           10,000,000                                                                 2,000


                   0                                                                  0




                          New Mexico
                                 Texas




                            Minnesota
                              Missouri




                              Montana




                             Michigan
                           Mississippi


                               Arizona

                           Tennessee




                             Kentucky




                               Nevada
                                   Iowa

                                Hawaii




                              Vermont
                            Oklahoma
                                   Utah


                               Virginia




                             Nebraska



                                 South




                                 Idaho
                                   Ohio
                             California




                               Indiana

                               Oregon
                             Alabama
                               Kansas




                         South Dakota

                         North Dakota




                             Colorado




                              Georgia

                                Florida
                             Arkansas




                            Louisiana




                                Illinois




                        North Carolina
                          Washington




                            Wisconsin




                         West Virginia
Source: OIG analysis of data from the COPS Office and the DEA’s El Paso Intelligence Center



       The COPS Office did not develop a strategic approach for administering
the meth program nor plan for the strategic disbursement of funds because
of the significant use of congressional earmarks and because it did not
anticipate that the program would continue after its initial year.
Nevertheless, we believe that establishing measurable goals and objectives
could help in ensuring that Meth Initiative funds are used in the most
effective and efficient manner to address the meth problem in America.

OIG Conclusions and Recommendations

      Our audit revealed significant weaknesses in the COPS Office’s
management and administrative controls related to the Meth Initiative.
Specifically, we identified a lack of coordination within the COPS Office,
weaknesses in the COPS Management System (the database that COPS uses
to manage and track grants), and insufficient and inconsistent monitoring of

                                          - xi -
grantees. In addition, our audits of individual Meth Initiative grantees
revealed over $9.8 million in dollar-related findings due to: (1) unapproved
budget deviations exceeding 10 percent of the award amount,
(2) unallowable and unsupported grant expenditures, and (3) excess funds
on hand that should be deobligated and put to better use.

       These weaknesses developed because the COPS Office lacked strong
administrative oversight of the Meth Initiative and lacked policies and
procedures to address these issues. According to the COPS Office, it has
taken limited actions towards overseeing the Meth Initiative due to the
restrictive nature of earmarked funds, which make up approximately
84 percent of the Meth Initiative funds administered by COPS. As a result of
the significant use of congressional earmarks in this program, funding is not
always directed to the areas of the country with the most significant meth
problem.

      Our report contains 17 recommendations that focus on specific steps
that the COPS Office should take to improve the management and
administration of the Meth Initiative, including implementing policies and
procedures for the standard administration and oversight of Meth Initiative
grants as well as evaluating the effectiveness of the program as a whole.




                                    - xii -
                              TABLE OF CONTENTS

INTRODUCTION .............................................................................. 1
METH STATISTICS ................................................................................ 2
ESTABLISHMENT OF THE METH INITIATIVE ..................................................... 5
  The COPS Office ............................................................................ 6
  Drug Enforcement Administration..................................................... 7
  Office of Justice Programs ............................................................... 8
OUR AUDIT APPROACH ........................................................................... 8
FINDINGS AND RECOMMENDATIONS ............................................. 9
COPS MANAGEMENT AND ADMINISTRATIVE CONTROLS NEED
IMPROVEMENT ............................................................................... 9
IMPLEMENTATION OF THE METH INITIATIVE .................................................... 9
  Organizational Infrastructure......................................................... 10
  Congressional Earmarks ............................................................... 11
  Discretionary Funding................................................................... 11
COPS MANAGEMENT SYSTEM ................................................................. 14
  Grant Data in the CMS ................................................................. 14
  CMS Security Matters ................................................................... 15
COPS MONITORING AND OVERSIGHT OF GRANTEES ....................................... 18
  General Oversight........................................................................ 18
  Monitoring Visits.......................................................................... 23
GRANT CLOSEOUT PROCESS ................................................................... 25
TRAINING GRANT SPECIALISTS ............................................................... 27
CONCLUSION .................................................................................... 27
RECOMMENDATIONS ............................................................................ 28
WEAKNESSES IDENTIFIED THROUGH OIG AUDITS OF METH
INITIATIVE GRANTS..................................................................... 30
BUDGET DEVIATIONS ........................................................................... 31
GRANT EXPENDITURES ......................................................................... 32
GRANT REPORTING ............................................................................. 34
  Financial Status Reports ............................................................... 34
  Program Progress Reports............................................................. 35
INTERNAL CONTROLS ........................................................................... 36
  Accounting Systems and Financial Records ...................................... 36
  Inventory Controls ....................................................................... 37
  Single Audit Requirement ............................................................. 38
ABILITY OF GRANTEES TO MEET AWARD OBJECTIVES ...................................... 38
CONCLUSION .................................................................................... 39
LACK OF A COHESIVE NATIONAL PLAN DIMINISHES
EFFECTIVENESS IN FIGHTING METH ............................................ 41
CONGRESSIONAL IMPACT ...................................................................... 41
  Execution of Earmarked Grants...................................................... 41
  Program Planning, Goals, and Objectives ........................................ 43
  Distribution of Funds .................................................................... 44
OIG OVERVIEW OF METH PROBLEM .......................................................... 47
OVERALL PROGRAM EVALUATION ............................................................. 49
CONCLUSION .................................................................................... 50
RECOMMENDATIONS ............................................................................ 50
STATEMENT ON INTERNAL CONTROLS.......................................... 51
APPENDIX I:           OBJECTIVES, SCOPE, AND METHODOLOGY .......... 52
APPENDIX II:          SCHEDULE OF DOLLAR-RELATED FINDINGS ........ 54
APPENDIX III: METH INITIATIVE GRANTS AUDITED BY THE OIG 55
APPENDIX IV:          PROGRAM DESCRIPTIONS OF THE 13 AUDITED
                      METH INITIATIVE GRANTEES .............................. 56
APPENDIX V:           EXPIRED GRANTS ELIGIBLE FOR CLOSURE.......... 59
APPENDIX VI:          BREAKDOWN OF FINDINGS BY AUDITED
                      GRANTEE ............................................................. 60
APPENDIX VII: METH INITIATIVE GRANTS TO STATES FY 1998
              THROUGH FY 2005............................................... 61
APPENDIX VIII: METH LAB SEIZURES BY STATE FY 1998
              THROUGH FY 2004............................................... 64
APPENDIX IX:          SUMMARY OF FINDINGS FOR OIG AUDITS OF 13
                      METH INITIATIVE GRANTEES .............................. 67
APPENDIX X:           COMMUNITY ORIENTED POLICING SERVICES
                      RESPONSE TO THE DRAFT REPORT ...................... 68
APPENDIX XI:          OFFICE OF THE INSPECTOR GENERAL, AUDIT
                      DIVISION ANALYSIS AND SUMMARY OF ACTIONS
                      NECESSARY TO CLOSE THE REPORT..................... 83
                                INTRODUCTION

       Methamphetamine (meth) is a powerfully addictive stimulant whose
use and production are increasing in the United States. The meth problem
became prevalent in the early 1990s in the Southwest and Western states
and since then has spread across most of the country. The Attorney General
has stated that meth is our country’s most dangerous drug problem. In its
2005 report, the National Association of Counties (NACo) presented the
results of its survey of law enforcement agencies and county child welfare
officials across the country to identify the effects of meth on their counties
and their citizens. 7 According to NACo, 58 percent of the 500 survey
respondents reported that meth is their largest drug problem and 50 percent
of the respondents said that 1 in 5 inmates has committed meth-related
crimes. Further, NACo reported that 40 percent of child welfare officials
reported an increase in out-of-home placements resulting from meth use.

       Meth is currently the most prevalent manufactured illegal drug
produced in the United States and the drug is made easily in clandestine
laboratories with relatively inexpensive over-the-counter ingredients. It can
be snorted, smoked, or injected. Meth is a derivative of amphetamine,
which is contained in many cold medications and inhalers. The ingredients
used to produce meth include fertilizer (anhydrous ammonia), gun cleaner,
cold remedy pills, lithium (from batteries), acetone, alcohol, phosphorous
(from matches and road flares), sulfuric acid, and brake cleaner. Producers
combine these ingredients during a process called “cooking,” which creates
toxic fumes and waste as by-products. Some of the chemicals used in the
“cooking” process are volatile and frequently explode. The explosions have
resulted in fires, chemical burns, serious physical injuries, and death. Every
pound of meth produces five pounds of toxic waste, and cookers frequently
dump the toxic waste on the ground or in the water supply, which pollutes
the environment.

      There are two broad categories of lab sites. One is the individual type
of operation, where producers create meth for their own consumption. The
second type is the large-scale production site (super-lab) where workers
produce meth for wider dissemination and sale. The cost of cleaning up
meth lab sites typically ranges from $2,000 to $5,000 for individual sites and
up to $150,000 for a super-lab site.



      7
         NACo was established in 1935 to represent the interest of county governments
throughout the United States. Today NACo represents over 2,000 of the country’s 3,066
counties. This membership represents over 80 percent of the nation’s population.


                                         -1-
      Typical meth users are in their 20s and 30s and come from all social
and economic backgrounds. Meth causes hyperactivity, suppresses the
appetite, and creates a sense of well-being. After the initial “rush” a state of
high activity and aggressiveness can turn into violent behavior. Users
typically feel the effects of meth for 6 to 8 hours. Long-term meth use can
lead to stroke, hallucinations, and other forms of psychotic behavior. It also
can result in convulsions, paranoia, heart attack, and death.

       Meth often affects parents to the point that they severely neglect their
children and fail to provide basic necessities, including proper nutrition and
medical care. Meth users are more prone to physically and sexually abuse
their children. In addition, children living in or near meth labs can suffer
severe injuries from fires and explosions in the lab and risk acute health
problems from exposure to the chemicals used in meth production.

Meth Statistics

      In fiscal year (FY) 1997 the Drug Enforcement Administration (DEA)
began tracking statistics about the number of meth labs seized by law
enforcement agencies. The DEA’s El Paso Intelligence Center (EPIC) was
established in 1974 and maintains the statistics in its National Clandestine
Laboratory Seizure database. EPIC relies on state and local law enforcement
agencies voluntarily reporting their statistics for inclusion in the database.
However, only three states – California, Missouri, and Oklahoma – have
mandatory reporting requirements. According to the data provided to us by
EPIC, the number of clandestine laboratory seizures reported nationwide has
increased from 3,441 in FY 1998 to 17,956 in FY 2004, an increase of
422 percent.




                                     -2-
                NUMBER OF LABORATORY SEIZURES REPORTED TO EPIC
                            FY 1998 THROUGH FY 2004
               20,000


               18,000


               16,000


               14,000


               12,000
    Seizures




               10,000


                8,000


                6,000


                4,000


                2,000


                   0
                        FY 1998   FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004

               Source: The DEA’s El Paso Intelligence Center

       In FY 2002, EPIC started to track the number of children affected by
their proximity to meth labs. The 50 states and the District of Columbia
reported that meth affects, on average, 3,500 children per year (between
FYs 2002 and 2004).

      Using the data from laboratory seizures that police agencies report to
EPIC, we created the following chart, which highlights the states with the
largest reported meth problem. For example, California reported over
13,000 laboratory seizures from FYs 1998 through 2004. Further analysis of
California’s lab seizure statistics reveals that the number of seizures per year
decreased from 1,921 in FY 1998 to 912 in FY 2004. This decrease is in
contrast to Missouri where the number of reported seizures has increased
over the years from 322 in FY 1998 to 2,784 in FY 2004. Missouri now has
the second largest number of reported seizures during the 7-year period at
almost 12,000. The chart also shows that the New England states have
reported few, if any, seizures for the same period.




                                                      -3-
                                                                            Seizures
                                                                                0
                                                                                       2,000
                                                                                               4,000
                                                                                                       6,000
                                                                                                               8,000
                                                                                                                                 10,000
                                                                                                                                                                12,000
                                                                                                                                                                                             14,000




                                                                   Alabama
                                                                     Alaska
                                                                    Arizona
                                                                  Arkansas
                                                                  California
                                                                  Colorado
                                                               Connecticut
                                                                  Delaware
                                                      District of Columbia
                                                                     Florida
                                                                    Georgia
                                                                     Hawaii
                                                                      Idaho
                                                                     Illinois
                                                                    Indiana
                                                                        Iowa
                                                                    Kansas
                                                                  Kentucky
                                                                  Louisiana
                                                                      Maine
                                                                  Maryland




      Source: The DEA’s El Paso Intelligence Center
                                                           Massachusetts
                                                                   Michigan
                                                                 Minnesota




-4-
                                                                Mississippi
                                                                   Missouri
                                                                   Montana
                                                                  Nebraska
                                                                    Nevada
                                                          New Hampshire
                                                               New Jersey
                                                               New Mexico
                                                                                                                                                                                                                  FY 1998 THROUGH FY 2004




                                                                  New York
                                                            North Carolina
                                                             North Dakota
                                                                        Ohio
                                                                 Oklahoma
                                                                    Oregon
                                                             Pennsylvania
                                                             Rhode Island
                                                           South Carolina
                                                                                                                                                                                                      NUMBER OF METH SEIZURES REPORTED TO EPIC BY STATE




                                                             South Dakota
                                                                Tennessee
                                                                      Texas
                                                                        Utah
                                                                   Vermont
                                                                    Virginia
                                                               Washington
                                                                                                                       FY 1998
                                                                                                                                 FY 1999
                                                                                                                                           FY 2000
                                                                                                                                                     FY 2001
                                                                                                                                                               FY 2002
                                                                                                                                                                         FY 2003
                                                                                                                                                                                   FY 2004




                                                             West Virginia
                                                                 Wisconsin
                                                                  Wyoming
Establishment of the Meth Initiative

       In FY 1998, under the authorization of the Violent Crime Control and
Law Enforcement Act of 1994, Congress established the Meth Initiative to
combat meth production, distribution, and use, as well as pay for the proper
removal and disposal of hazardous materials at clandestine meth
laboratories. 8 Every year since FY 1998, Congress has funded the Meth
Initiative under a variety of names, such as the Meth Program or the
“Meth/Drug Hot Spots” Program. The amount of program funding, by fiscal
year, appears in the following table.

                           METH INITIATIVE FUNDING
                           FY 1998 THROUGH FY 2005

                      Fiscal Year                  Total Funding
                          1998                    $    34,000,000
                          1999                         35,000,000
                          2000                         35,675,000
                          2001                         48,393,300
                          2002                         70,473,000
                          2003                         56,760,642
                          2004                         53,481,255
                          2005                         51,854,020
                         Total                    $ 385,637,217
               Source: The COPS Office

       Within the Department of Justice (DOJ), three distinct components are
involved in administering the Meth Initiative. Congress appropriates the
totality of the funds to the Office of Community Oriented Policing Services
(COPS Office). However, within the total of appropriated funds, Congress
has also designated funds that are to be passed through the COPS Office to
the DEA for activities associated with meth. In addition, the COPS Office has
entered into reimbursement agreements with the Office of Justice Programs
(OJP) to fund selected meth-related OJP activities. 9 The following table is a
breakdown of the funding administered by each component for each fiscal
year. As shown in the table, the COPS Office administered $214.1 million



      8
          Pub L. No. 103-322 (1994).
      9
          The agreements between OJP and COPS are explained in further detail on page 10.


                                          -5-
directly, and distributed about $46.6 million to OJP and almost $125 million
to the DEA.

               METH FUNDING APPROPRIATED BY CONGRESS
   Fiscal     Administered        Transferred        Transferred             Total
   Year         by COPS 10          to OJP           to the DEA             Funding
    1998      $ 24,500,000         $          0       $    9,500,000      $ 34,000,000
    1999         23,525,000                 0             11,475,000         35,000,000
    2000         19,400,000        16,275,000                      0         35,675,000
    2001         19,856,220         8,581,080             19,956,000         48,393,300
    2002         39,233,000         6,750,000             24,490,000         70,473,000
    2003         30,630,617         6,110,025             20,020,000         56,760,642
    2004         29,535,902         4,155,804             19,789,549         53,481,255
    2005         27,434,602         4,686,554             19,732,864         51,854,020
   Totals     $214,115,341        $46,558,463        $124,963,413         $385,637,217
  Source: The COPS Office

      A brief summary of the Meth Initiative responsibilities and activities of
each component follows.

The COPS Office

       The mission of the COPS Office is to advance community policing in
jurisdictions of all sizes across the country. When Congress created the
Meth Initiative, it assigned the COPS Office the responsibility for
administering the program and disseminating the funding. Between
FYs 1998 and 2005, the COPS Office was appropriated $385.6 million, of
which $171.5 million was passed through to the DEA and OJP and
$214.1 million was retained for awards to state and local entities.

      Much of the appropriated funding administered by the COPS Office is
allocated based on detailed congressional guidance about how the monies
are to be spent. In particular, “earmarks” are congressionally designated,
performer-specific projects that do not appear in the agency’s budget
request.

      Of the $214.1 million in Meth Initiative grants awarded by the COPS
Office, over $179 million was awarded in response to congressional

      10
           Not included in these figures are some instances, amounting to $4,069,085,
where the COPS Office recovered unspent funds from grantees or grantees withdrew from
the Meth Initiative grant before its completion. In those instances, the COPS Office was
able to re-award the funds in subsequent years. According to the COPS Office, it has
administered about $218 million in Meth Initiative funds.

                                          -6-
earmarks. In addition to earmarked funding, the COPS Office administers
discretionary funds, wherein the COPS Office has the discretion both to
designate the recipient and the amount of the award. The total Meth
Initiative discretionary funding for FYs 1998 through 2005 amounts to
almost $35.1 million. 11 Since the inception of the program in FY 1998, the
COPS Office has created programs to assist communities in their efforts to
combat meth by helping children endangered by the drug, targeting
assistance to small and rural communities, and initiating a pilot program for
the safe and convenient removal of hazardous waste.

Drug Enforcement Administration

       According to the DEA, its mission is to enforce the controlled
substances laws and regulations of the United States; bring those
organizations and individuals involved in the growth, manufacture, or
distribution of controlled substances to justice; and support non-enforcement
programs aimed at reducing the availability of illicit controlled substances.
Between FYs 1998 and 2005, Congress designated almost $125 million to the
DEA to fund activities related to the Meth Initiative. This funding, although
specifically designated for the DEA, was passed through the COPS Office and
provided to the DEA under a Memorandum of Understanding. Of the
$125 million, the DEA used $109.3 million in reimbursement for lab cleanups
performed by independent private contractors. The DEA also used
$15.6 million for training and other expenses to address the meth problem.

            METH INITIATIVE FUNDING PROVIDED TO THE DEA
                      FY 1998 THROUGH FY 2005
    Fiscal              Lab
                                           Training                Other             Total
     Year            Cleanup
     1998          $ 5,000,000          $ 4,500,000            $       0        $ 9,500,000
     1999            5,000,000            6,475,000                    0         11,475,000
     2000                    0                    0                    0                  0
     2001           19,956,000                    0                    0         19,956,000
     2002           20,000,000            3,500,000              990,000         24,490,000
     2003           19,870,000                    0              150,000         20,020,000
     2004           19,789,549                    0                    0         19,789,549
     2005           19,732,864                    0                    0         19,732,864
    Totals        $109,348,413          $14,475,000           $1,140,000       $124,963,413
Source: The COPS Office




       11
          According to COPS Office officials, the discretionary funds consist of non-earmarked funds
appropriated by Congress, as well as the previously mentioned unspent funds that the COPS Office
recovered from grantees.


                                             -7-
Office of Justice Programs

      According to OJP, its mission is to provide federal leadership in
developing the nation’s capacity to prevent and control crime, improve
criminal and juvenile justice systems, increase knowledge about crime and
related issues, and assist crime victims. This is done through a variety of
grant programs. OJP and the COPS Office entered into reimbursement
agreements (RA) totaling $46.6 million for FYs 2000 through 2005 to
transfer responsibility for administering all aspects of several meth-related
grants from the COPS Office to OJP. COPS officials told us that the grantees
selected for inclusion under the RAs were grantees that OJP was already
overseeing because the entities had other DOJ grants. The COPS Office took
this action to ensure that grantees only had to work with one grant-making
agency for all of their programs.

Our Audit Approach

      We reviewed the Meth Initiative from two perspectives. First, we
reviewed the COPS Office’s management and administration of its meth
grant funds. Second, we performed audits of selected grants that the COPS
Office awarded under the Meth Initiative between FYs 1998 and 2004. 12

       To review the COPS Office’s management and administration of the
Meth Initiative, we examined correspondence, grant manuals, policies, and
procedures. We also interviewed officials and staff in the COPS Office, the
DEA, and OJP. Further, we researched the appropriation legislation and
related legislative history. In addition, we reviewed statistics on meth labs,
seizures of meth, and other meth-related topics collected by EPIC, as well as
historical information about the emergence of the meth problem. Finally, we
attended the 2005 COPS Meth Conference to obtain background information,
make contact with individual grantees, and observe information-sharing
among participants.

       To assess grantee performance at the local level, we conducted audits
of 44 grants (to 13 separate entities) that the COPS Office awarded from the
inception of the program in FY 1998 through FY 2004. We conducted these
audits to determine whether the grantees complied with requirements
regarding grantee financial reporting, grant drawdowns, and budget
management and control. In addition, we tested expenditures to determine
if costs charged to the grant program were allowable, supported, and in
accordance with applicable regulations, guidelines, and terms and conditions
of the grants.
       12
         See Appendix III for a list of the audits of the COPS Meth Initiative grants
conducted by the Office of the Inspector General, Audit Division.


                                            -8-
              FINDINGS AND RECOMMENDATIONS

1.   COPS MANAGEMENT AND ADMINISTRATIVE CONTROLS
     NEED IMPROVEMENT

     We found significant weaknesses in the COPS Office’s
     management and administrative controls related to the Meth
     Initiative. Specifically, we identified separate entities within
     the COPS Office that were awarding and monitoring Meth
     Initiative grants with no overall coordination. Further, our
     review identified weaknesses in the COPS Management
     System, which is the database that the COPS Office uses to
     manage and track grants. As a result, the system could not
     be relied upon to provide accurate data about the Meth
     Initiative as a whole. We also found that the COPS Office
     was not sufficiently monitoring its grantees, and its
     administration of grants was inconsistent, resulting in
     different standards for various grantees under the same
     program. In addition, the COPS Office had closed only 36 of
     72 grants (50 percent) that were eligible for closure. The
     remaining 36 expired grants were, on average, about 26
     months past the award end date. Sixteen of these
     outstanding grants had $824,517 in available funding that
     should have been deobligated and put to better use. Finally,
     the COPS Office does not provide consistent training or
     guidance in grants administration to the grant specialists
     responsible for administering the awards. These
     weaknesses developed because the COPS Office lacked
     strong administrative oversight of the Meth Initiative and
     lacked policies and procedures to address these issues.


Implementation of the Meth Initiative

      Congress appropriated over $385.6 million for the Meth Initiative
between FYs 1998 and 2005, of which the COPS Office received about
$214.1 million for grants to state and local entities. Congress earmarked
approximately 84 percent of the $214.1 million for specific entities or
locales. Therefore, the COPS Office has discretion to select only a small
number of the grant recipients and projects. Further, the COPS Office did
not expect to receive the Meth Initiative funding from Congress. As a result,
there are separate entities within the COPS Office and in OJP awarding and
monitoring Meth Initiative grants with no overall coordination between them.


                                     -9-
Organizational Infrastructure

       According to COPS personnel, the initial FY 1998 appropriation for the
Meth Initiative was unexpected. They further stated that they originally did
not anticipate any funding beyond that initial year for the program. The
COPS Office formed a Meth Team under the Grant Administration Division to
monitor the majority of meth awards being made to grantees who were not
already covered by its existing structure, which included the Training and
Technical Assistance Division and the Program, Policy Support, and
Evaluation Division. Subsequent awards to grantees previously assigned to
these other Divisions remained under their administration. As a result, three
separate and distinct organizational units within the COPS Office processed
the first Meth Initiative awards. Assignment of grants among these Divisions
was dependent upon the type or purpose of the award. For example, the
COPS Office assigned a grant for a training center to the Training and
Technical Assistance Division.

      We interviewed representatives from each of the organizational units
and were told that each oversight group acted independently. There has
been no regular communication among individuals in the various units to
foster uniform administration of the meth awards, or to share information on
matters such as policies, procedures, concerns, and best practices.

      Moreover, in FY 2000 officials from the COPS Office and OJP met and
executed a reimbursement agreement to transfer certain Meth Initiative
grants from the COPS Office to OJP. In general, the transferred grants were
for awardees that were already receiving funds from OJP but were not an
active COPS grantee in FY 2000. OJP and the COPS Office have signed
reimbursement agreements each year since FY 2000, and a total of
43 awards amounting to about $46.6 million has been transferred to OJP.
According to both OJP and the COPS Office, there is limited communication
between the two agencies regarding the administration, monitoring, or
oversight of the transferred Meth Initiative grants.

      As a result, the four separate entities currently are awarding and
monitoring Meth Initiative grants with no overall coordination among them.
The former Meth Team leader stated that in 2004 the Meth Team attempted
to coordinate the Meth Initiative by meeting quarterly with external
partners, such as DEA and OJP. However, these meetings were not
successful because attendance was not consistent and the endeavor fell by
the wayside.




                                   - 10 -
Congressional Earmarks

      Congress has appropriated over $385.6 million for the Meth Initiative
between FYs 1998 and 2005, of which the COPS Office received about
$214.1 million. Most of the money that the COPS Office receives comes in
the form of congressional earmarks. Generally, the congressional
conference or committee reports that accompany the approved
appropriations bill list the earmarked projects. The reports typically list only
the entity, a very general description of the project, and the amount
allocated.

       More than $179 million of the $214.1 million of the COPS Meth
Initiative funds, approximately 84 percent, has been designated by Congress
for specific entities or locales. The earmarking process does not require
projects to be vetted for duplication, necessity, fiscal accountability, or any
other factor normally reviewed by a granting agency through the solicitation
and selection process.

Discretionary Funding

      Although Congress has earmarked the majority of Meth Initiative
funding, the COPS Office does administer some discretionary funds, where it
designates both the recipient and the amount of the award within the
amount of discretionary funding available. However, the amount of
discretionary funding available to the COPS Office from year-to-year has
been limited and has not been certain or predictable.

       Congress directly appropriated discretionary funding only in FY 2002.
In the other years, discretionary funds administered under the Meth
Initiative became available when a grantee did not accept an earmark award
or when an earmarked grantee’s proposed budget or total expenditures
totaled less than the earmarked amount. Discretionary funding over the
years has ranged from zero to $20 million, as shown in the following table.




                                     - 11 -
                      DISCRETIONARY METH FUNDING
                         ADMINISTERED BY COPS

                       Fiscal                Discretionary
                       Year                     Funding
                       1998                   $ 5,100,000
                       1999                     3,600,000
                       2000                             0
                       2001                     3,791,640
                       2002                    20,000,000
                       2003                     2,197,620
                       2004                       385,896
                       2005                             0
                       Total                  $35,075,156
                   Source: The COPS Office


       Because the COPS Office does not know each year if discretionary
funding will be available, officials wait until the conclusion of the
appropriation and earmark award process to decide how any such money
will be used. In FYs 1998 and 1999, according to the former COPS Meth
Team Leader, the COPS Office used the discretionary monies to fund
projects very similar to the earmarked awards, but the awards were not
focused on any particular aspect of the meth drug problem.

      However, since FY 2002 the COPS Meth Team has attempted, on a
year-by-year basis, to focus funding on a particular aspect of the meth
problem. Generally, the Meth Team did not utilize the funds for the same
purpose every year, nor did they receive additional discretionary funding to
continue these projects from year-to-year. The discretionary projects
included those described below.

     •     In FY 2002, the COPS Office initiated the Small Rural
           Communities Meth Project. The overall goal of this project was
           to assist communities with populations of less than 150,000 in
           developing a community policing strategy to reduce the harmful
           effects of meth. Areas of participation could include sharing of
           intelligence information; development of partnerships and multi-
           disciplinary teams to respond to meth; development of protocols
           for the assessment and treatment of persons found in meth labs;
           and the enhancement of strategies, protocols, technology, and
           equipment to reduce the harmful effects of meth on children.

     •     In FYs 2002 and 2003, the COPS Office implemented the Drug
           Endangered Children Project to focus funding on children
           affected by meth. Several strategies were identified including

                                       - 12 -
            the: (1) development or expansion of existing inter-agency,
            multi-disciplinary teams comprised of specialists from a variety
            of social services areas such as child welfare, legal assistance,
            medical care, and law enforcement; (2) development of
            protocols for the identification, assessment, and treatment of
            children found at meth sites; and (3) purchase of equipment to
            provide immediate care, decontamination, medical evaluation,
            and comfort to child victims recovered from meth labs and drug
            sites.

      •     In FY 2003, the COPS Office introduced the Pilot Container
            Storage Project. This project was created to fund the acquisition
            and use of approved hazardous waste containers (for disposal of
            meth and precursor chemicals) to be strategically located
            throughout a state.

      •     The COPS Office conducted national Meth Initiative conferences
            in December 1999, August 2000, May 2002, November 2003,
            and January 2005. Three of these meetings (May 2002,
            November 2003, and January 2005) were funded with
            discretionary monies. The purpose of these meetings was to
            provide grantees with meth-related training, such as first-
            responder instruction and hazardous waste safety, as well as to
            assist grantees with building partnerships and increasing
            collaborative efforts in their local communities. The conferences
            included interactive workshops and presentations by federal,
            state, and local agencies, and focused on meth enforcement,
            prevention, treatment, drug-endangered children, information
            sharing, and intelligence gathering.

       In administering the discretionary grant projects, the Meth Team
develops an application package and sends out a notice of fund availability
to targeted grantees soliciting them to submit a grant application. According
to the former Meth Team leader, they base their rankings and funding
decisions on a variety of factors. For example, Meth Team members stated
that (1) they determine whether the objectives of the proposed project will
support the overall focus that the Meth Team developed for that year;
(2) they attempt to ensure that the awards are geographically dispersed and
that funding is not unduly concentrated in a particular area; (3) they confirm
that the proposal does not include unallowable costs; and (4) they attempt
to determine the likelihood that the proposed endeavor will succeed. Once
all of these steps are completed, the COPS Office awards the discretionary
grants. However, due to the uncertainty of discretionary funding there is no
ongoing, coordinated use of discretionary monies, and the bulk of available

                                    - 13 -
funds have gone into different programs in the last several years. Further,
the COPS Office decides on a year-to-year basis how the funds will be used.

COPS Management System

       The COPS Management System (CMS) is a database used by COPS
staff to manage and track grants throughout their life cycle. Our review
identified weaknesses in this system related to security and data accuracy
and reliability.

Grant Data in the CMS

       The CMS contains different modules for different types of grants
(e.g., meth grants, hiring grants, technical grants). The records in the
modules contain specific information about each of the grants, such as
award dates, grant status (open or closed), dollar amount of funds awarded,
and administrative issues. Consequently, COPS officials stated that all COPS
Office staff depend upon the CMS for grant data.

       In the early stages of our audit, we requested that the COPS Office
provide a list of all of the Meth Initiative grants awarded from the inception
of the program in FY 1998 through FY 2004. The COPS Office provided a
listing generated from the CMS. Our cursory review of this initial universe
revealed that it contained numerous errors and omissions. For example, we
determined that the COPS Office had omitted at least six grants from the
list.

       We brought these discrepancies to the attention of officials in the
COPS Office. Subsequently, the COPS Office provided new universe listings.
However, we continued to identify errors and omissions, such as missing
grant descriptions, grants with incorrect award amounts, and an open grant
identified as closed. We repeated this process several times until we
obtained a complete listing containing all 267 Meth Initiative awards that
accounted for all appropriations through FY 2004.

      Working with officials in the COPS Office, we sought to identify the
extent of the discrepancies and determine why the errors persisted. We
found that, in general, the controls over the CMS were inadequate or
non-existent. Specifically, we found: (1) a lack of standardization in data
entry, (2) a CMS user manual that was relatively unknown and out-of-date,
and (3) a lack of a policy requiring periodic review of grant data for accuracy
and completeness.



                                    - 14 -
       Standardization – As noted previously, various organizational units
within the COPS Office were responsible for administering Meth Initiative
grants. When individuals within these units entered information on
individual grants into the CMS, they used different terms and descriptions.
For example, the Program, Policy Support, and Evaluation Division and the
Training and Technical Assistance Division titled their Meth Initiative grants
as “PPSEGRANT”, or “PPSECA” or “OTHER-METH” or “TRAINING.” The COPS
Meth Team consistently titled its grants as “COPS Meth.” In addition, staff in
the COPS Office did not use consistent terms to identify the status of grants
in the CMS. For example, individuals used the terms “pending” and “hold” to
identify the same grant application status.

      Because of these inconsistencies, overall program information was not
easily retrievable from the CMS. The inconsistencies also caused many of
the omissions in the early versions of the universe listings that the COPS
Office provided to us.

      User Manual – We determined that a CMS user manual existed and
was available electronically. However, our interviews with staff in the COPS
Office revealed that knowledge and use of the manual varied from individual
to individual. Our review of the manual showed that there was no guidance
on how to use the CMS for managing Meth Initiative grants, including the
establishment of consistent terms to define grant status. Further, the COPS
Office had not updated the manual since 1999 even though the system had
undergone significant revisions since that time, including the creation of a
module dedicated to the Meth Initiative. We believe that the lack of
information about the Meth Initiative module and the failure to include
explanations of common terms limited the manual’s usefulness to the Meth
Team.

        Review of Data Accuracy – Meth Team members were responsible for
reviewing their assigned grants and checking the accuracy of the data
entered into the CMS. The Meth Team leader told us that he and the deputy
team leader reviewed individual grant information after the Control Desk
initially entered a grant into the system. However, the Meth Team leader
stated that the COPS Office had not performed an overall review of the grant
information in CMS for accuracy and completeness.

CMS Security Matters

      The CMS is the primary system for the maintenance of information on
COPS Office grants. Therefore, this system should be adequately protected
to ensure system integrity and reduce the risk of unauthorized access,
modification, disclosure, or loss. However, we found that the CMS lacked

                                    - 15 -
adequate controls related to system security. Specifically, the COPS Office
had not sufficiently restricted users’ ability to overwrite data or properly
regulated employee log-out practices, as detailed below.

      Write-access – All employees and contractors who work at the COPS
Office have, at a minimum, read-only access to the CMS, which allows the
user to view information in each module or program but not the ability to
add or change data. However, in our opinion, only select employees should
have write-access, which allows the user to add or change information in the
various modules in the system.

      COPS Office Information Technology (IT) staff told us that no one
could delete an entire grant record from the CMS, but anyone with write-
access could change data in a record. For example, an individual with write-
access could extend an end date of a grant or change the status without the
proper authority or the need to do so. Additionally, the system does not
leave a complete audit trail that tracks record changes and the user that
made them.

       In addition to the lack of audit trails, we found that the COPS Office
had not sufficiently limited the number of personnel with write-access to
Meth Initiative grants. In January 2005, the COPS Office provided us with a
listing of staff with write-access to the COPS Meth Initiative grant module in
the CMS. The list contained 61 names and we reviewed each individual’s
employment status and area of responsibility for the applicable period. Our
results revealed that 29 of the 61 persons on the list required write-access
to the Meth Initiative module because they were on the Meth Team or
worked in the COPS Finance, IT, Training and Technical Assistance, or Legal
Divisions. Conversely, the COPS Office confirmed that the remaining
32 users did not have a legitimate need for write-access to the entire Meth
Initiative module in the CMS. Three of these individuals were no longer
employed by the COPS Office. However, COPS officials confirmed at the exit
conference that access to the COPS network system for the three individuals
had been removed in a timely manner.

      We discussed our exceptions with COPS officials who agreed with our
assessments. They explained that the COPS Office updated the CMS
software in July 2004, which enabled the COPS IT staff to restrict write-
access of individual users to particular areas, such as the grant closeout
modules. At the outset of our audit, employees on the grant closeout team
and in other areas still had full write-access to the COPS Meth Initiative
module and their access had not been appropriately limited to the areas for
which they were responsible.


                                    - 16 -
      Between February and September 2005, COPS Office staff took action
to correct some of the weaknesses we identified. Specifically, COPS officials
modified the contract employee departure checklist to ensure that the
departing user’s name would be removed from the general operating and
CMS systems. In addition, for the 32 users that we identified in January
2005 as not requiring write-access, the COPS Office performed the following
corrections:

      •   The names of 3 individuals no longer employed by the COPS Office
          were removed from the CMS;

      •   Write-access in the CMS Meth Initiative module was removed for
          the names of 10 individuals no longer on the Meth team; and

      •   Write-access for 19 individuals was strictly limited to the areas
          within the Meth Initiative module for which the individuals had
          responsibility.

       However, managers in the COPS Office stated that they did not have a
written policy requiring periodic review of users with write-access to the
CMS. In our opinion, good internal controls dictate keeping the number of
users with write-access to each module at a minimum and allowing
individuals to have write-access pertaining only to their areas of
responsibility. We believe that the COPS Office should adopt measures to
prevent personnel without a legitimate need from having access to
information systems and ensure that there are procedures covering user
accounts, including policies for requesting, setting up, suspending, or closing
user accounts. In addition, management should periodically review access
rights.

       Employee Log-out Practices – During our review of the CMS write-
access controls discussed above, we found that the COPS Office had not
properly regulated the log-out practices of its employees. As noted in the
previous section, the COPS Office had not discontinued CMS access for
employees who were no longer employed by COPS. When we discussed this
issue with COPS IT officials, we learned that system records showed that two
individuals who no longer worked for the COPS Office had not properly
logged out of the system. These former employees had last logged on the
system 8 months prior to their separation from the agency. These log-ons
remained active until we brought the issue to the attention of COPS IT staff.
According to COPS IT officials, COPS Office employees have been told to log
out, but were aware that employees often choose not to log out of the CMS
at the end of the day.



                                     - 17 -
       COPS IT officials recognized that these log-out practices were improper
but did not present a bona fide security risk to the system. However, these
officials stated that the system currently does not have the ability to
automatically log individuals out of the system if their machine is left on over
a significant period of time.

COPS Monitoring and Oversight of Grantees

       Good grant management practices require sufficient oversight and
review of the grantee’s reports and activities to determine the status of the
grantee’s achievement of the grant objectives. We found that the COPS
Office did not have written procedures for general oversight of the Meth
Initiative grants and individual Meth Team members were not monitoring the
grantees consistently.

General Oversight

      COPS Grant Program Specialists are responsible for managing and
overseeing individual grant awards assigned to them. As noted on page 10,
three separate groups in the COPS Office have responsibility for the various
Meth Initiative grants. Since its creation in FY 1998, the COPS Meth Team
has been responsible for the majority of Meth Initiative grants.

      Interviews with members of the COPS Meth Team revealed that their
methods of overseeing the grants on a day-to-day basis consisted of actions
such as telephone discussions with grantee officials; desk reviews of
submitted reports; and responding to e-mails, letters, and other
correspondence. Discussion areas included programmatic issues such as
award modifications, grant extensions, and the completion of required
reports. We examined the COPS Office’s oversight of Meth Initiative grants
and found significant differences in the guidance and oversight provided by
the various grant specialists responsible for the grants. The individual grant
specialists did not have a standard method, format, or location for
documenting their monitoring activities. Moreover, formal guidance issued
by the COPS Office was inconsistent and contradictory, as described below.

       COPS Meth Grant Manuals – COPS informed us that guidance for Meth
Initiative grantees can be found in grant manuals issued specifically for the
program. In 1999, the COPS Office issued its first manual for meth grants,
entitled the “Methamphetamine Initiative Grant Owners Manual” (Meth Grant
Manual). The COPS Office revised the manual in 2001, 2002 and again in
2005.




                                     - 18 -
      We found that COPS grant program specialists outside of the Meth
Team were not aware of the manuals. Therefore, these grant program
specialists did not provide them to their grantees. During our audits of
13 individual Meth Initiative grantees, we found 3 grantees (the Mississippi
Bureau of Narcotics; Prairie View Prevention Services of South Dakota; and
the Sioux City, Iowa, Police Department) had not been informed of the Meth
Grant Manuals. Consequently, the various COPS grant program specialists
managing Meth Initiative grants were using different standards and
providing inconsistent guidance to grantees under the same program.

       Moreover, several COPS officials told us that congressionally
earmarked grants were stand-alone grants and that such grantees were not
required to comply with the Meth Grant Manual requirements. However, this
is contradicted by the standard grant acceptance documents, which the
COPS Office used for both discretionary and earmarked awards that include
a provision requiring the grantees to adhere to the grant manuals. For
example, although Prairie View Prevention Services of South Dakota (a for-
profit group) signed formal assurances statements agreeing to comply with
the manuals’ provisions, officials in the COPS Office told us that this grantee
was not required to comply with the Meth Grant Manuals because of their
for-profit status. 13 In addition, COPS officials stated that they believed that
Congress expected the COPS Office to approve funding to earmarked
grantees.

      During our audits of specific Meth Initiative grants, we found that
several grantees had used grant funds to purchase items generally
prohibited by the Meth Grant Manuals. In these cases, however, the COPS
Office had authorized the use of funds by approving the grant application,
which clearly stipulated how the funds would be used.

       For example, according to the Meth Grant Manuals and a list of
unallowable costs provided to grantees by the COPS Office, costs for furniture,
photocopiers, telecommunications equipment, and vehicles were unallowable.
However, with the approval of the COPS Office, earmarked grantees used Meth
Initiative funds for expenditures related to these types of items. Specifically,
the Alabama Department of Public Safety spent approximately $27,000 on

       13
          Included in the grant assurances signed by Prairie View officials is the following
statement: “You will comply with all requirements imposed by the Department of Justice as
a condition or administrative requirement of the grant; with the program guidelines; with
the requirements of OMB Circulars A-87 (governing cost calculations), and A-128, or A-133
(governing audits); . . . with the provisions of the current edition of the appropriate COPS
grant owner’s manual; and with all other applicable laws, orders, regulations or circulars.”
[Emphasis added.]


                                          - 19 -
several unallowable items, such as personal data assistant units, mobile
radios, and a television. The Sioux City, Iowa, Police Department used Meth
Initiative grant funds for costs related to furniture and vehicles. In these
instances, the COPS Office approved the submitted budget, which stipulated
that each of the grantees intended to use Meth Initiative funds for the types of
items normally prohibited by the Meth Grant Manuals.

      The COPS Office also approved itemized grant budgets for the Vermont
State Police that included salary and benefits for existing officers, which is
prohibited under the Meth Grant Manuals. 14 The Program Manager was
unable to explain why the COPS Office approved budgets that were clearly
contrary to the guidance in the manuals.

      Similarly, the Meth Grant Manuals stated that meals and refreshments
associated with meetings were unallowable costs and therefore could not be
charged to the Meth Initiative grants. However, our audit of Prairie View
Prevention Services of South Dakota identified that the COPS Office allowed this
grantee to provide meals and refreshments totaling $2,688 for meetings
associated with the dissemination of information on meth, and to charge the
expense to the grant. Additionally, the COPS Office approved the grantee’s
purchase of three photocopiers.

      In our judgment, there is nothing inherent in a congressional earmark
that would exempt either an administering agency from applying program
guidelines consistently or a grantee from adhering to such guidelines.
Further, we believe there is nothing in the nature of earmarked grants that
prohibits the agency administering such grants from reviewing grant
applications and budgets to ensure they meet the stated requirements of the
program. In fact, since FY 2002 the congressional reports containing the
Meth Initiative earmarks have explicitly stated that Congress expected the
COPS Office to examine each of the proposals and to provide grants only if
warranted. Consequently, we believe that the COPS Office has a
responsibility to provide consistent oversight of grantees in the
administration of grant awards, which includes requiring that both
earmarked and discretionary grantees adhere to the same guidelines. 15


       14
           Elsewhere in the grant application the grantee stated that award funds would be
used for new hires. However, the line item in the budget contains costs for “senior
troopers.” Review of grantee expenditures revealed that the entity received reimbursement
for existing officers.
       15
           At the exit conference, COPS officials stated that unallowable items listed in the
manual may be funded under extremely limited and extenuating circumstances and at their
discretion. However, our review noted that the COPS Office had approved items on the
unallowable list for about a third of the grantees audited.

                                           - 20 -
      Grantee Reporting Requirements - The first three versions of the COPS
Meth Grant Manuals stated that the COPS Office will distribute program
progress reports on a periodic basis throughout the grant period, but do not
define periodic, while the most recent 2005 version stated they will be due
upon request but does not include specific timeframes as to when, if at all,
these reports will be requested. We examined the Meth Initiative grant
reporting practices and found inconsistencies in reporting requirements
between different types of grants. In addition, we identified that the COPS
Office lacked a formal process for distributing and collecting program
progress reports.

       For example, the application documentation for the discretionary Meth
Initiative awards under COPS’ Drug Endangered Children program and the
FY 1999 grant application for earmarked Meth Initiative grants stated that
program progress reports were due semiannually with a final report due at
the end of the grant. Further, the application for discretionary awards under
the Small Rural Communities program required annual program progress
reports and a final program progress report upon completion of the grant.
Finally, the application for FY 2004 earmarks merely states that program
progress reports are due on a periodic basis.

      Several Meth Team members stated they were responsible for sending
out the reports and obtaining feedback from grantees. However, the former
Meth Team leader told us that a contract employee sent the mid-grant
program progress reports around the middle of a grant period. Finally, two
grant program specialists stated they sent the report to their grantees every
quarter, while another grant program specialist stated that the reports were
sent annually.

      The different reporting requirements coupled with the lack of a formal
process is confusing and may have contributed to the inconsistent reporting
practices of grantees. During our audits of 13 individual Meth Initiative
grantees, we identified weaknesses attributed primarily to the grantees
(such as the failure to submit requested reports) and these are detailed in
Finding 2. However, these reviews also revealed that the COPS Office failed
to gather adequate grant implementation information because it did not
require grantees to report on their progress.

      To examine the COPS Office’s practices related to grantee reporting of
project implementation, we examined its efforts to collect grant program
progress reports from the 13 grantees that we audited. For each grantee,
we examined the number of awards received, the grant award periods, and


                                   - 21 -
the number of program progress reports that the COPS Office required the
grantee to submit.

       We determined that the COPS Office failed to obtain written program
progress information from 5 of 13 grantees. Specifically, the Mississippi
Bureau of Narcotics received four grants with award periods lasting from
21 to 42 months between May 2001 and June 2005. However, at the time
we conducted our audit in the spring of 2005, the COPS Office had obtained
only one program progress report from this grantee. Similarly, the COPS
Office received only one program progress report from the Arkansas State
Police even though the entity received 2 grants with award periods lasting
from 23 to 29 months between May 2001 and June 2004. In addition, the
Sioux City, Iowa, Police Department, received 6 grants with award periods
lasting from 15 to 23 months between October 1997 and September 2004,
but did not obtain written reports covering the final four grants. Moreover,
the Pierce County, Washington, Alliance received three grants between May
2002 and January 2006 and the COPS Office required the grantee to submit
only two program progress reports during that timeframe. Finally, the
California Department of Justice received 6 grants with award periods lasting
from 24 to 48 months between May 2001 and June 2006. However, the
COPS Office had not obtained any program progress reports as of March
2005 from this grantee. According to grantee officials, the COPS Office
requested that they submit a program progress report for each of its six
grants less than 1 week before we began our on-site work in California in
April 2005.

       Without sufficient documentation of grantee activities, the COPS Office
cannot effectively monitor grant activities or grantee compliance with grant
conditions. Because of the large amount of funds awarded under the Meth
Initiative and the deficiencies in the COPS Office’s practices for requesting
program progress reports, we believe that the COPS Office needs to clarify
and strengthen its reporting requirements and ensure that grantees are
required to report on their activities at least annually. The COPS Meth Team
leader concurred with this finding and told us in September 2005 that he
had instructed team members to require semiannual program progress
reports for all currently open awards.

      Lessons Learned/Best Practices – In addition to the deficiencies cited
above, we noted that the COPS Meth Team did not take full advantage of the
information it learned through its administration of grant awards, and failed
to share this information with others. For example, Meth Team members did
not compile a list of common weaknesses they identified through their
reviews of program progress reports, audits, site visits, and phone contacts
with grantees. Such a compilation could alert other Meth Team members

                                    - 22 -
and new employees of specific matters to be aware of and could assist in the
timely correction of deficiencies.

      Further, we believe that the Meth Team members could be more
proactive in the sharing of information about best practices and successful
strategies employed by various grantees. Numerous grantees told us that
the Meth Initiative conferences sponsored by the COPS Office afforded them
a good opportunity to network and share information with other grantees in
the program. However, we noted that these conferences occur somewhat
irregularly and COPS Office officials stated that not all interested parties
could attend due to limited availability of space. For these individuals and
others searching for information on a more regular basis, the COPS Office
has funded the creation of a website for sharing information on successful
grant strategies for all grant programs. However, grantees input information
voluntarily and this website has had very little information on Meth Initiative
programs. We believe that the COPS Office could also provide input and
should encourage grantees to use the website for sharing their best
practices.

       The COPS Office could also look for additional ways to provide
information and training to its Meth Initiative grantees and others in the law
enforcement community through pre-established sources. For example,
through other grant programs that it administers, the COPS Office provides
funding to 27 training centers known as Regional Community Policing
Institutes. These training centers teach various law enforcement courses,
such as community policing, reducing domestic violence, and ethics.
However, we reviewed a list of the types of courses provided and noted that
only one of the training centers offers any classes specifically related to
meth (the institute in Colorado offers classes on identifying and handling
clandestine meth laboratories). Because the meth problem appears to be
growing in the United States and not all interested parties can attend the
COPS meth conferences, we believe that the COPS Office should examine
the possibility of encouraging the COPS-funded training centers to provide
additional meth-related coursework.

Monitoring Visits

      COPS Office staff stated that the Grant Monitoring Division was created
in 1998 to perform site visits and review the activities of COPS grantees.
According to the COPS Office, the Grant Monitoring Division selected
grantees for on-site visits by focusing on dollar amount, as well as grantees
who were not previously reviewed, grantees having multiple grants, and
grantees with compliance issues. Meth awards were not the focus during the
selection process.

                                    - 23 -
       After the COPS Grant Monitoring Division chose the sites, the
individual grant monitors notified the grantee and requested that the
grantee have grant documents ready for review. When conducting the
reviews, the Grant Monitoring Division staff were to be on-site 1 to 3 days
and examine the grantee’s progress toward grant objectives and compliance
with regulations, laws, and conditions of the grants. According to the
Monitoring Operations Manual, the monitors were mainly concerned with
retention of officers, community policing, redeployment, support for
expenses, and programmatic and financial reporting.16 If the grantee has a
Meth Initiative grant, the Monitoring Division instructs the grantee to make
photocopies of all supporting documentation for the expenses claimed under
the grant, performs a cursory review of the documents, and then forwards
the total package to the Meth Team. Following the completion of the review,
the Meth Team is responsible for all required follow-up related to the Meth
Initiative grants.

       We found that since FY 1998, only 9 of the 179 Meth Initiative
grantees have received an on-site review by the COPS Office. In addition,
the reports for the nine grantees that received on-site reviews were limited
in nature and did not contain much detailed information regarding the Meth
Initiative grants. The reports generally listed grant number, period covered,
award amount, objectives, dollars approved by budget category, and a
comments section. Also, the reports usually asked the following three “yes”
or “no” questions: (a) Was the grantee pursuing at least one of the noted
activities? (b) Were crime scene and analysis activities consistent with the
application? and (c) Was the grantee delinquent in filing financial reports? A
Grant Monitoring Division supervisor stated that while past reviews were
cursory in nature, the COPS Office is currently in the process of developing a
more in-depth monitoring strategy.

       Subsequent to our field work, we were provided with six reports from
site visits to Meth Initiative grantees that were conducted by the Meth Team.
Three of these site visits were conducted during FY 2000; the remaining
three were performed during FY 2002. We reviewed the reports and noted
that they were more program-oriented, and one-half of the reviews included
information about non-meth related grants. The reports provided a general
overview of the Meth Team’s visit and the FY 2002 reports included a
discussion on how the grantees’ community policing efforts had been
enhanced due to the meth funding. The Meth Team generally conducted the

      16
         Activities related to the retention of officers, community policing, and
redeployment are related to other types of grants, such as COPS Hiring and Making Officer
Redeployment Effective grants.


                                          - 24 -
reviews over a 1- or 2-day period and reported on the grantees’ progress
toward grant objectives. Based on our review of the reports, it appears that
a detailed financial review of grant expenditures was not performed.

       We believe that proactive on-site monitoring identifies grant
management deficiencies and provides an early intervention opportunity for
entities that may not be complying with grant requirements or struggling to
achieve the grant objectives. Considering that about 8 percent of Meth
Initiative grantees have received a COPS Office on-site review, we believe
that the COPS Office could improve its efforts to monitor these grantees.

Grant Closeout Process

       The 1999, 2001, and 2002 Meth Grant Manuals required grantees to
make final drawdowns and provide final grant Program Progress Reports and
Financial Status Reports (FSRs) within 90 days of the award end date. The
2005 Meth Grant Manual contained similar language. The OJP Financial
Guide also requires these final reports. COPS officials informed us that
during the closeout process, COPS Meth Team members were to complete
checklists to ensure that there were no open issues with the COPS
Monitoring or Legal Divisions and that there were no other administrative
issues with the grant. The closeout process also required the COPS Finance
Staff to document on the checklist that the grantee had submitted the final
FSR and to deobligate any unspent funds. The COPS Office’s grant files were
then to be marked “closed” and the COPS Office was to notify the grantee by
letter that the grant was officially closed.

      At the outset of our review, we reviewed the files of the 267 Meth
grants awarded between FYs 1998 and 2004 and found that the COPS Office
had only closed 36 of the 72 grants (50 percent) eligible for closure. The
remaining 36 expired grants were, on average, about 26 months past the
award end date. We determined that as of March 2005, 16 of the 36 open
expired grants had $824,517 in funding that grantees had not utilized and
the COPS Office should have deobligated; the remaining grants had no
unspent funds.

      We also noted that 2 of the 16 open, expired grants with funds on
hand were to entities receiving Meth Initiative awards under the Small Rural
Community discretionary grant program and had never utilized the awards.
Specifically, the COPS Office verified that the Montgomery County, Kansas,
Sheriff’s Department never submitted an award acceptance document for its
$222,222 grant, which COPS awarded in FY 2002. COPS also verified that
the Creek County, Oklahoma, Sheriff’s Department submitted a letter to the


                                   - 25 -
COPS Office stating that it was withdrawing, as of June 15, 2005, from its
FY 2002 Meth Initiative award of $222,222.

       In November 2005 COPS officials informed us that they had taken action
on 8 of the 16 expired awards with funds remaining on hand. Specifically, the
COPS Office deobligated $324,149 from five of the expired grants. As a
result, we have calculated $500,368 as the balance of monies not deobligated
($824,517 - $324,149) in 11 awards. 17 In addition, they informed us that
they had subsequently paid out funds totaling $158,323 in three awards.
According to the Meth Team leader, $153,869 of the $158,323 was paid out to
two grantees after the grantees were approved no-cost extensions. The COPS
Office could not provide us with a reasonable explanation as to why the third
grantee was permitted to draw down the remaining balance of $4,454. In our
opinion, retroactive no-cost extensions made years after a grant has expired
is not a fiscally responsible practice.

       The lack of prompt closure and deobligation of funds prevents the
COPS Office from making these funds available to other grantees or
returning it to the U.S. Treasury. The failure to close grants promptly also
affects the grantees. DOJ Guidelines require grantees to retain records for a
minimum of 3 years after the end of the grant. Further, the 2002 Meth
Grant Manual, Chapter IV, requires grantees to retain records for 3 years
after the COPS Office notifies the grantee that the grant is officially closed.
If the grantee is complying with these requirements and grants are not
closed in a timely manner, grantees must unnecessarily retain records for
extended lengths of time. For example, if an FY 1998 grant expired in
FY 2000 and the COPS Office had not formally closed it in FY 2005, the
grantee would have kept records for up to 7 years and would be required to
keep them for at least 3 additional years.

      The COPS Office does not have a written policy mandating prompt
closure of grants past their end dates. Additionally, COPS officials stated
that closing grants was not an agency priority until FY 2002. They added
that the over the past 3 years the COPS Office has made a concerted effort
to close expired grants, starting with the oldest awards. However, the COPS
Office had not started addressing grants awarded in FY 1998, which was
when COPS executed the first meth grants. In June 2005, the Meth Team
leader told us that his team was currently reviewing Meth Initiative grants
on a monthly basis to determine which ones the COPS Office should close.


       17
           Our calculation includes $134,729 in three grants that were previously reported in
OIG Grant Report GR-50-05-007 and is therefore not included in the total amount of dollar-
related findings in this report. Consequently, the balance of $365,639 remains as funds put
to better use.

                                           - 26 -
Training Grant Specialists

      The Office of Management and Budget Circular A-123, entitled
“Management Accountability and Control,” provides guidance to federal
managers on improving the accountability and effectiveness of federal
programs and operations by establishing, assessing, correcting, and reporting
on management controls. In addition, the Government Accountability Office
has stated that “all personnel need to possess and maintain a level of
competence that allows them to accomplish their assigned duties, as well as
understand the importance of developing and implementing good internal
control. Management needs to identify appropriate knowledge and skills
needed for various jobs and provide needed training, as well as candid and
constructive counseling, and performance appraisals.” 18

       The former Meth Team leader stated that the principal means of
training grant program specialists on the Meth Team was to assign new
employees to a mentor and use on-the-job training. He added that many
Meth Team members have taken grant management courses. However, we
found that this training is not required, and the COPS Office has not
identified any core courses new employees should take. Further, the COPS
Office has not documented specific topics and areas that must be included in
the on-the-job training provided to new Meth Team grant specialists.

       This ad-hoc approach to the training of new staff relies heavily on the
knowledge and competency levels of current staff. Mentors’ comprehension
of various grant functions will vary depending on their own grant-
administering experiences, which in turn will affect what they teach and how
much detail they provide. As a result, the information passed on to new
staff may be inconsistent and could be inaccurate. We believe that the
COPS Office should develop a written description of the duties and
responsibilities of Meth Team members and establish guidance for the
training of these individuals.

Conclusion

       We identified significant weaknesses in the COPS Office’s management
and administration of grants awarded under the Meth Initiative. Specifically,
four separate entities were awarding and monitoring Meth Initiative grants
with no overall coordination among them. We also found that the COPS
Office did not have readily available information on the universe of Meth
Initiative grantees because its IT system lacked basic controls over data

      18
        Government Accountability Office, Standards for Internal Control in the Federal
Government, (Report No. GAO/AIMD-00-21.3.1), November 1999.


                                         - 27 -
accuracy and consistency. Further, the COPS Office should improve system
security to ensure that write-access to its grant database is limited to those
with clear need and that access for former employees is discontinued in a
timely manner.

       In addition, our audit revealed significant deficiencies in the COPS
Office’s oversight of Meth Initiative grants. We identified differences in the
guidance and oversight provided by the various grant specialists responsible
for the grants. Further, formal guidance issued by the COPS Office has been
inconsistent and contradictory. As a result, the COPS Office has held
different grantees to different standards, and some grantees have been
allowed to use Meth Initiative funds for items generally prohibited by the
Meth Grant Manuals.

      Moreover, the COPS Office has not proactively worked to close expired
meth awards. This practice has resulted in our identification of $365,639 in
funds put to better use in expired grants. 19 Finally, COPS should develop a
written description of the duties and responsibilities of Meth Team members
and establish guidance for the training of these individuals.

Recommendations

We recommend that the COPS Office:

   1.        Develop an agency-wide plan with policies and procedures to
             implement the Meth Initiative.

   2.        Ensure that all the groups that monitor Meth Initiative grants
             develop and implement a method to communicate with each other
             on a regular basis to promote consistency in grant oversight.

   3.        Institute procedures to verify periodically the completeness and
             accuracy of grant information in the CMS.

   4.        Develop and distribute a user’s manual for the CMS, including the
             Meth Initiative module.

   5.        Modify the access status of COPS Office staff who do not need
             write-access to the meth grant module, or portions thereof, in the
             CMS.

   6.        Develop procedures regarding the periodic review and update of
             user status by the Meth Team leader.

        19
             See Appendix V for a listing of awards with funds on hand and eligible for closure.

                                              - 28 -
7.    Require IT staff to periodically monitor log-out practices of staff and
      provide reminders as necessary.

8.    Require audit trail capability in the next upgrade of the CMS
      software.

9.    Standardize grant oversight procedures to ensure that all Meth
      Initiative grants are monitored in a consistent fashion and that
      these monitoring activities are documented in the grant records.

10.   Review and update the Meth Grant Manual (including
      standardization of submission dates for program progress reports)
      and ensure that all Meth Initiative grants are administered
      consistently and grantees are required to adhere to the same
      guidelines.

11.   Increase monitoring of grantee compliance with reporting
      requirements to ensure that all required reports are submitted.

12.   Periodically update “Best Practices”’ on the COPS Office website
      with information developed by the Meth Team.

13.   Remedy the $365,639 balance of monies not deobligated for the
      grants that had funds available past the expiration dates.

14.   Institute procedures to immediately deobligate grants when a grant
      is completed, when a grantee withdraws, or when a grantee does
      not accept a grant.

15.   Identify minimum training standards for grant program specialists
      and develop a Meth Initiative grant procedures manual for the Meth
      Team.




                                  - 29 -
2.     WEAKNESSES IDENTIFIED THROUGH OIG AUDITS OF
       METH INITIATIVE GRANTS

       Based on our review of 44 grant awards totaling over
       $56 million under the Meth Initiative, we identified over
       $9.8 million in dollar-related findings. Specifically we found:
       (1) unapproved budget deviations exceeding 10 percent of
       the award amount, (2) unallowable and unsupported grant
       expenditures, and (3) excess funds on hand that should be
       deobligated and put to better use. In addition, we noted
       many accounting and internal control weaknesses as well as
       reporting deficiencies pertaining to Financial Status Reports
       and program progress reports.

      As part of our review, the OIG reviewed 44 grants totaling
approximately $56 million that the COPS Office awarded between FYs 1998
and 2004 to 13 grantees under the Meth Initiative. 20 Our audits
encompassed 16 percent of the number of Meth Initiative awards and
26 percent of the total funds awarded by the COPS Office under the
program. The OIG conducted these audits to test whether the grantees
complied with requirements regarding grantee financial reporting, grant
drawdowns, and budget management and control. We also determined
whether costs charged to the grant were allowable, supported, and in
accordance with applicable regulations, guidelines, and terms and conditions
of the grants. Primarily, the criteria we audited against was the guidance
provided in the COPS Meth Grant Manuals, OMB Circulars, and the OJP
Financial Guide.

       The audits revealed a total of $9,806,053 in dollar-related findings that
included $9,523,622 in questioned costs and $282,431 in funds put to better
use. 21 Further, our review of awards revealed numerous deficiencies
pertaining to internal controls, compliance, and the ability of grantees to
realize a variety of program objectives. Appendix VI provides a detailed
breakdown of our audit report findings by grantee. The following table



       20
           See Appendix III for a listing of the COPS Meth Initiative audit reports issued by
the Office of the Inspector General, Audit Division.
       21
           Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements; may not be supported by adequate documentation at the time of
the audit; or are unnecessary or unreasonable. Questioned costs can be remedied through
offset, waiver, recovery of funds, or the provision of supporting documentation. Funds put
to better use are future funds that could be utilized more efficiently if management took
actions to implement and complete audit recommendations.


                                            - 30 -
summarizes the grantees audited, the amount awarded, and the dollar-related
findings. 22

                       SUMMARY OF OIG GRANT REPORTS
              Grantee                   Amount       Questioned           Funds to
               Name                    Awarded         Costs             Better Use
      Alabama Department of
                                     $ 1,048,350        $ 113,748          $ 18,000
      Public Safety
      Arkansas State Police             1,850,000          860,321           15,000
      California Department
                                       16,650,153                    0       16,575
      of Justice
      Indiana State Police              3,431,234          534,201                0
      Kansas Bureau of
                                        2,495,600          198,874                0
      Investigation
      Marion County, Oregon,
                                        1,227,400                    0            0
      Sheriff’s Office
      Mississippi Bureau of
                                        2,611,925        1,968,775           98,127
      Narcotics
      Oklahoma State Bureau of
                                        1,496,700          692,414                0
      Investigation
      Pierce County,
                                        8,959,454        2,414,098                0
      Washington, Alliance
      Prairie View Prevention
                                        2,090,788          485,124                0
      Services of South Dakota
      Sioux City, Iowa, Police
                                       10,080,858        1,043,223          134,729
      Department
      Vermont State Police              2,384,106        1,210,767                0

      Virginia State Police             1,740,939             2,077               0
              TOTALS                $56,067,507        $9,523,622          $282,431
      Source: Office of the Inspector General Grant Audit Reports

Budget Deviations

      The OJP Financial Guide requires that grantees obtain prior approval
from the awarding agency if the transfer of funds between budget categories
exceeds 10 percent of the total amount awarded. These changes may be
within a budget category, such as personnel, as well as between budget
categories, such as personnel and equipment. Our audits revealed that 3 of
13 grantees (Kansas Bureau of Investigation; Oklahoma State Bureau of
Investigation; and the Sioux City, Iowa, Police Department) did not properly
monitor expenditures by budget category and exceeded the 10-percent

      22
         Executive summaries of the audit reports can be viewed at
http://www.usdoj.gov/oig.


                                         - 31 -
limitation without prior approval from the COPS Office. The failure of these
grantees to obtain prior approval for budget deviations in excess of
10 percent of the grant award resulted in $1,240,042 in questioned costs
($46,451, $692,414, and $501,177, respectively).

      In addition, we could not properly assess budget deviations in
two instances (Mississippi Bureau of Narcotics and Arkansas State Police)
because the grantee lacked adequate supporting documentation to account
for grant expenditures.

      The remaining eight grantees (Alabama Department of Public Safety;
California Department of Justice; Indiana State Police; Marion County,
Oregon, Sheriff’s Office; Pierce County, Washington, Alliance; Prairie View
Prevention Services of South Dakota; Vermont State Police; and Virginia
State Police) generally were in compliance with the regulations regarding
budget deviations.

Grant Expenditures

       According to the OMB Circular A-87, entitled “Cost Principles for State,
Local, and Indian Tribal Governments,” grantees are only allowed
reimbursement for those costs that are reasonable in nature and permissible
under the specific guidance of the grant. Further, the allowability of costs is
discussed in the 1999, 2001, and 2002 Meth Grant Manuals and the OJP
Financial Guide. For each of the audited grants, we determined whether
costs charged to the program were allowable and in accordance with
applicable regulations, guidelines, and terms and conditions of the grants.
According to the Meth Grant Manuals, allowable costs include only approved
salaries, overtime, and fringe benefits for support personnel and approved
overtime for sworn law enforcement officers; equipment and technology
purchases; training; and travel. 23

     Our audits revealed almost $8.3 million in grant expenditures that
were either unsupported or unallowable. 24 The bulk of these exceptions
were due to grant expenditures for which the grantee did not have adequate
support, unallowable charges for salaries and equipment, and excess

       23
            However, as reported in Finding 1, the COPS Office previously approved budget
proposals submitted by earmarked grantees that included the intention to use Meth
Initiative funds for unallowable items, thereby authorizing the grantee to use the funds for
the purpose stipulated. In these instances, we did not take exception to the grantee’s
actions. Instead, we have recommended that the COPS Office ensure that all Meth Initiative
grantees are required to adhere to the same guidelines.
       24
          This amount excludes unapproved budget deviations and funds put to better use
discussed elsewhere in this section.

                                          - 32 -
drawdowns. Appendix VI contains a detailed breakdown of our questioned
costs. Examples of the grant expenditures that we questioned are as
follows:

   •   The Pierce County, Washington, Alliance entered into contracts with
       local law enforcement entities. Our review revealed $1,465,329 in
       questioned costs because the sub-recipients received funds for
       experienced officers even though the agreements allowed only for new
       hires. In addition, some of these departments also were unable to
       demonstrate that they had used the federal funds to supplement,
       rather than supplant, the local budget for law enforcement. Further,
       the grantee could not provide adequate supporting documentation for
       non-personnel costs of the subrecipients totaling $948,769.
       Additionally, the Mississippi Bureau of Narcotics and Prairie View
       Prevention Services of South Dakota billed the grants for unsupported
       salaries and overtime of $718,646 and $266,406 respectively.

   •   The Sioux City, Iowa, Police Department charged the grants $439,871
       for unallowable equipment, $13,720 in unallowable construction, and
       $78,792 in unsupported costs. The Alabama Department of Public
       Safety was also unable to support equipment purchases billed to the
       grant totaling $69,827. In addition, the Indiana State Police and the
       Vermont State Police billed the grants for unallowable salaries totaling
       $509,233 and $1,199,676, respectively.

   •   Costs billed in excess of actual expenditures are unallowable. Both the
       Sioux City, Iowa, Police Department and Prairie View Prevention
       Services of South Dakota billed the grants for costs in excess of
       expenditures in expired awards totaling $9,663 and $112,052,
       respectively. Further, grantees must be able to provide support for
       recorded expenditures. We noted that the Arkansas State Police and
       the Mississippi Bureau of Narcotics billed the grants for unsupported
       drawdowns totaling $827,063 and $1,213,304, respectively.

     Our audits also identified several instances, totaling $282,431, in
which the grantees did not use the totality of their grant funds, and we
recommended that these funds be deobligated. 25

   •   The Alabama Department of Public Safety’s approved budget included
       $18,000 for the purchase of a storage container from the Arkansas

       25
          A portion of this amount ($147,702) is discussed here. The remaining $134,729
is accounted for in the total $824,517 detailed in the discussion of the COPS Office’s grant
closeout practices in Finding 1 and, therefore, is not repeated here.


                                           - 33 -
       State Police for the removal of hazardous chemicals. However, the
       Arkansas State Police transferred a similar container to the Alabama
       Department of Public Safety at no cost. As a result, the grantee did
       not expend the approved grant funds to obtain the chemical storage
       container and the unspent funds were not deobligated.

   •   The Arkansas State Police did not backfill a funded civilian position at
       $15,000 for its 2001 and 2002 grants ($7,500 each year).

   •   The Mississippi Bureau of Narcotics had $98,127 in unutilized funds.
       This resulted from $2,916 in unexpended grant funds at the close of
       one of its four grants. Further, the grantee did not fill four approved
       positions totaling $95,211.

   •   The California Department of Justice had $16,575 in unutilized funds
       due to a miscalculation in the funds needed for indirect costs related to
       contractors.

Grant Reporting

      The Meth Grant Manuals state that grantees are to submit two types of
reports to the COPS Office: Financial Status Reports (FSRs) and program
progress reports. In each of the individual grant audits, we determined if
the grantee was in compliance with financial and program progress reporting
requirements.

Financial Status Reports

       Financial Status Reports (FSRs) provide information on grant funds
spent and unobligated amounts remaining on hand. The reports are due
within 45 days of the end of each calendar quarter. Six grantees (the
California Department of Justice; Kansas Bureau of Investigation; the
Mississippi Bureau of Narcotics; the Oklahoma State Bureau of Investigation;
the Pierce County, Washington, Alliance; and the Virginia State Police)
submitted all of the required FSRs in a timely manner. However, our audits
revealed that 7 of 13 grantees did not submit a total of 11 required financial
reports and submitted a total of 30 reports late. The following table
identifies, by grantee, the total number of required FSRs, the number of
reports submitted in a timely manner, and the exceptions noted.




                                      - 34 -
                    FINANCIAL STATUS REPORT DEFICIENCIES
      GRANTEE                        NUMBER OF REPORTS                          TOTAL
       NAME               REQUIRED         TIMELY       LATE   NOT FILED      EXCEPTIONS
 Alabama
 Department of                  4             1          3          0                3
 Public Safety
 Arkansas State
                               13             7          4          2                6
 Police
 Indiana State Police          28             17         4          7               11
 Marion County,
 Oregon, Sheriff’s             17             15         2          0                2
 Office
 Prairie View
 Prevention Services           23             15         6          2                8
 of South Dakota
 Sioux City, Iowa,
                               32             24         8          0                8
 Police Department
 Vermont State
                               15             12         3          0                3
 Police
        TOTALS                132             91         30        11               41
Source: Office of the Inspector General Audit Reports


 Program Progress Reports

        Program progress reports are intended to describe the information
 relevant to the performance of the grant objectives in a narrative fashion.
 Program progress reports provide information on the status of funded
 activities and the purchase and installation of equipment and technology.
 The Meth Grant Manuals state “Program progress reports will be distributed
 on a periodic basis throughout the grant period.” 26

       Eight grantees (the California Department of Justice; the Kansas Bureau
 of Investigation; Marion County, Oregon, Sheriff’s Office; the Mississippi
 Bureau of Narcotics; the Pierce County, Washington, Alliance; the Sioux City,
 Iowa, Police Department; the Virginia State Police; and the Vermont State
 Police) filed their requested reports in a timely fashion. In addition, our audits
 revealed that 5 of 13 grantees either submitted reports late or did not submit
 a report as requested. The following table identifies, by grantee, the total
 number of requested reports, number submitted in a timely manner, and the
 number and type of exceptions noted.

         26
           As noted in Finding 1, we identified a lack of consistency in the COPS Office’s
 administration of the progress report requirement. During our audits of individual grants,
 we determined if the grantees submitted the reports as requested by the COPS Office.


                                               - 35 -
                    PROGRAM PROGRESS REPORT DEFICIENCIES

         GRANTEE                             NUMBER OF REPORTS                    TOTAL
          NAME                   REQUESTED        TIMELY     LATE   NOT FILED   EXCEPTIONS
Alabama Department of
                                       4                0     2         2           4
Public Safety

Arkansas State Police                  1                0     1         0           1

Indiana State Police                   5                2     3         0           3

Oklahoma State Bureau of
                                       8                7     0         1           1
Investigation
Prairie View Prevention
                                       21               2     3        16           19
Services of South Dakota
          TOTALS                      39                11    9        19           28
Source: Office of the Inspector General Audit Reports


Internal Controls

      Our audits of the 13 grantees’ activities identified various internal
control weaknesses. These weaknesses included weak controls over
accounting systems and financial records, poor inventory controls, and non-
compliance with OMB Circular A-133 single audit requirements, as
summarized below.

Accounting Systems and Financial Records

      The OJP Financial Guide states that grantees are required to establish
and maintain an accounting system and financial records to accurately
account for funds awarded to them. The Meth Grant Manuals state that
accounting systems and financial records must reflect expenditures for each
project separately. In addition to the grant requirements related to the
accounting system, the OJP Financial Guide requires grant recipients to
establish and maintain an adequate system of internal controls. Effective
internal controls help to ensure the reliability of financial reports as well as
compliance with applicable laws and regulations. However, our audits
revealed that three grantees did not maintain adequate controls over their
accounting system and financial records. Specifically:

   •   The Indiana State Police did not ensure that its accounting system
       properly identified and tracked grant expenditures. As a result, the
       grantee commingled grant funds, which is prohibited by the OJP
       Financial Guide.



                                              - 36 -
  •   The Sioux City, Iowa, Police Department had one person who
      maintained a petty cash fund; had access to a grant checking account;
      controlled, wrote, and signed the checks; performed the bank
      reconciliations; and entered financial transactions into the accounting
      system. Therefore, essential accounting duties were not adequately
      separated. Further, no internal control reviews were conducted of the
      petty cash or the checking account maintained by this individual.

  •   The Mississippi Bureau of Narcotics did not ensure that its accounting
      systems reflected complete and accurate disbursements. Further, the
      grantee did not maintain proper accounting records of grant
      expenditures. As a result, $1,968,775 reimbursed to the grantee was
      questioned because its accounting records could not be reconciled to
      funds disbursed.

Inventory Controls

       Pursuant to OMB Circular A-87 grantees must maintain property
records for equipment with a value in excess of $5,000. Further, the OJP
Financial Guide states that the records must contain the serial or
identification number, acquisition date, and the cost and location of the
property. In addition, the Guide states that a system of controls must exist
to ensure safeguards to prevent loss, damage, and theft of the property and
that inventories must be taken every 2 years and reconciled to property
records. Moreover, Circular A-87 states that the grantee should conduct a
physical inventory at least once every 2 years to ensure the items exist and
are in use. Our audits revealed weaknesses with the inventory controls for
two grantees. Specifically:

  •   The Indiana State Police did not conduct a physical inventory every
      2 years as required by Circular A-87, nor did the grantee have official
      inventory records.

  •   The Arkansas State Police did not record in its inventory system
      numerous pieces of grant-funded equipment exceeding its own $2,500
      capitalization threshold, including 5 scanners, a plotter, a multi-media
      projector, 2 video systems, and several vehicles.




                                    - 37 -
Single Audit Requirement

       OMB Circular A-133 requires that grantees whose federal
expenditures exceed $500,000 in a year obtain a single audit. 27 In
addition, Circular A-133 requires an audit of expenditures of federal awards
and an audit of internal controls over compliance with the laws,
regulations, contracts, and grants applicable to federal programs. In
general, grantees obtained single audits as required. However, although
Prairie View Prevention Service’s FY 2003 federal expenditures exceeded
$300,000, the grantee did not have a single audit performed as required. 28
According to the grantee, they did not know that they were required to
comply with the provisions of Circular A-133. However, we noted that the
requirement was included in the grant assurances documents signed by
Prairie View officials throughout the life of the grants awarded between
FY 2001 and FY 2004.

Ability of Grantees to Meet Award Objectives

       The COPS Office funded all 13 audited grantees through the COPS
Meth Initiative by way of earmarked funds. Some of the grantees also
received discretionary grant awards. Each of the grantees submitted an
application package that included the overall purpose of its project. In
addition, the grantees established general objectives to guide their activities.
However, 3 of the 13 audited grantees could not provide support that their
awards met their objectives or adequately measured project outputs,
outcomes, and milestones. The remaining 10 grantees provided support
that showed they appeared to be meeting their individual grant award
objectives. Specifically, we found that:

   •   The COPS Office provided the Sioux City, Iowa, Police Department with
       six grants to operate a regional methamphetamine training center.
       The grant objectives were to provide law enforcement agencies with
       the training needed to help reduce illegal meth producing laboratories.
       We determined that the grantee’s training center was established and
       operational; however, few of the classes were meth-specific. 29 In


       27
         For fiscal years ending prior to January 1, 2004, the annual expenditure threshold
was $300,000.
       28
          Prairie View Prevention Services is a private subchapter “S” corporation that
provides drug and alcohol prevention and counseling services to communities throughout
South Dakota.
       29
          Further discussion of this grant, its objectives, and its actual activities can be
found on page 43.

                                             - 38 -
      addition, the grantee had not established any program outputs or
      milestones for the project.

  •   In its grant application, the Alabama Department of Public Safety
      stated that it would: (1) increase the number of arrests of meth
      distributors; (2) increase the number of reported clandestine meth
      labs dismantled; (3) develop a database system for tracking the
      number of meth-related arrests and dismantled labs; and
      (4) collaborate with the DEA in a pilot container storage program to
      transport hazardous chemicals found at meth lab sites to centralized
      locations throughout the state.

      Our audit determined that the grantee tracked meth arrests and lab
      seizures through the statewide Criminal Justice Information Center
      system. However, the grantee failed to ensure that the law
      enforcement agencies it assisted provided information to the system
      as well. A state official told us that, as a result, meth incidents were
      grossly under-reported. In addition, the planned database
      implementation was halted due to a disagreement with the vendor and
      the storage containers program was not operational at the time of our
      review in May 2005.

  •   The Vermont State Police received congressionally earmarked grant
      funds to: (1) combat meth production and distribution; (2) target
      drug “hot spots”; and (3) remove and dispose hazardous materials at
      clandestine meth labs. While the grantee used a portion of the grant
      to provide meth training to law enforcement and citizens, we noted
      that the state of Vermont only reported one meth lab seizure to EPIC
      between FY 1998 and FY 2004. Primarily, the grantee used the Meth
      Initiative funds to operate a task force that targeted heroin. Further,
      because the grantee did not collect relevant data nor develop
      performance measures, we were unable to determine the overall effect
      the grants had on reducing heroin, meth, drug-related deaths, and
      associated crime. In our opinion, without this data it is not possible to
      determine what was accomplished with grant funds and whether the
      intended results were being achieved.

Conclusion

       We conducted individual grant audits of Meth Initiative grantees and
found that in some cases essential grant requirements were not being met.
Our audits examined over $56 million of the $214.1 million in COPS Meth
Initiative grants awarded through FY 2004 and identified over $9.8 million in
dollar-related findings (17.5 percent of the funds reviewed). In addition, we

                                    - 39 -
identified weaknesses related to progress and financial reporting and budget
deviations.

       In our judgment, the COPS Office is not adequately managing and
administering the Meth Initiative. Grant monitoring is a critical management
tool to ensure that grant programs are accomplished, grant objectives are
achieved, and grantees are properly expending funds. We believe the COPS
Office can do more to institute stronger oversight and ensure that the
grantees adhere to regulations, guidelines, and terms and conditions of the
grants. We are not offering any recommendations related to individual grant
audits since the recommendations were included in the separate audit
reports. However, recommendations related to the failure of the COPS
Office to adequately administer the Meth Initiative are included in Finding 1.




                                    - 40 -
3.   LACK OF A COHESIVE NATIONAL PLAN DIMINISHES
     EFFECTIVENESS IN FIGHTING METH

     The COPS Office has taken limited actions towards
     overseeing the Meth Initiative due to the restrictive nature
     of earmarked funds. As a result of the significant use of
     congressional earmarks in the Meth Initiative, available
     funding is not always directed to the areas with the greatest
     need and because of the earmarks, the COPS Office has
     been unable to fully control the program. The COPS Office
     also has not established overall program goals and
     measurements to support the DOJ Strategic Plan.
     Moreover, the COPS Office has not complied with the
     congressional instruction to consult with the DEA to review
     earmarked grant proposals to determine if the grants were
     warranted, nor has the COPS Office conducted a meaningful
     evaluation of the program as a whole. We believe that a
     more strategic approach to the Meth Initiative could provide
     a more effective contribution towards combating the meth
     problem.

Congressional Impact

       More than $179 million of the $214.1 million of the COPS Meth
Initiative funds has been designated as congressional earmarks. Generally,
the congressional conference or committee reports that accompany the
approved appropriations bill list the earmarked projects and identify the
entity, a very general description of the project, and the amount allocated.
The earmarking process does not require projects to be vetted for
duplication, necessity, fiscal accountability, or any other factor normally
reviewed by a granting agency through the solicitation and selection
process.

Execution of Earmarked Grants

       For FYs 1998 through 2001, each of the congressional reports that
identified the earmarked projects was preceded with an instruction that the
conferees expected the COPS Office “to award grants for the following
programs.” However, for FYs 2002 through 2005, each of the congressional
reports that identified the earmarks included similar instructions about the
actions to be taken in administering the program. The FY 2002 instruction
stated the following:




                                   - 41 -
      Within the amounts provided, the Department is expected to
      review, in consultation with the DEA, the following proposals,
      provide grants if warranted, and report to the committees on
      its intentions….

      We found that the COPS Office had not consulted with the DEA and
was not reviewing the earmarked proposals to determine if grants were
warranted. COPS officials told us they do not possess the same degree of
control over earmarked funds that they do with discretionary grant funds.
According to the External Affairs Division, the COPS Office does not question
the direction of Congress, including the grantees identified, the purpose of
the programs indicated, or the amounts stipulated for earmarked entities.
Therefore, the COPS Office does not strategically analyze or assess the
necessity or benefit of awarding funds to the earmarked entities, or compare
the congressionally identified projects to those of other entities.

       We asked COPS Office personnel for a description of the steps that
they take in awarding grants. We were told that when necessary, External
Affairs had contacted congressional staff for further clarification on
ambiguously worded appropriations language as to who the grantee actually
should be, to ascertain what type of project was envisioned, or to clarify the
purpose of the grant to be awarded. According to these individuals,
following the passage of the annual appropriation, the COPS Office sends
grant application materials to the earmarked entities with instructions to
complete and submit an application for the appropriated funds. While the
earmark within the congressional report generally contains only limited
information, the application provides a more specific and detailed description
of the project and how the entity intends to use its anticipated funding.
According to COPS officials, upon receipt of the applications, the COPS Office
reviews the submitted package to ensure that the amount requested is not
more than the congressional allocation for the project. If the COPS Office
determines that the proposed project contains a request for unallowable
costs or is not related to meth or a drug hot spot, COPS officials are to follow
up with the applicant to encourage the entity to refocus the proposal. In
some instances the issues are brought before an earmark working group,
which the COPS Office formally established in FY 2004.

      A COPS official told us that the purpose of the earmark working group
was to coordinate all of its earmark grants for meth and other programs and
ensure that both the appropriations language and COPS office statutory and
the programmatic goals, if applicable, are met. This group includes
representatives from the Meth Team, and the Training and Technical
Assistance, Finance, Legal, Monitoring, External Affairs, and the Program,
Policy, Support and Evaluation Divisions. OJP, which administers some meth

                                     - 42 -
grants on behalf of COPS, is not a member of the working group. If a
particular earmark is unique, or issues such as grant focus or requests for
unallowable items cannot be reconciled easily, representatives can bring the
issue up for discussion to the working group. The group gives guidance on
how to resolve the issue or in some cases the Externals Affairs staff may
contact the appropriate congressional staff to further discuss an issue.

      According to COPS officials, each time that the External Affairs Division
has become involved, the COPS Office ultimately awarded the grant in
accordance with the submitted application or after refocusing the
application. COPS officials also stated that since the program’s inception, no
earmark grantee had been denied grant funding, and that the COPS Office
works with a grantee to help them change the project scope and to identify
allowable items that can be funded under the Meth Initiative.

       The Meth Initiative grants to Sioux City, Iowa, provide an example of
the interaction between the grantee, the COPS Office, and Congress. Every
year since FY 1998 Congress has earmarked methamphetamine funds for a
law enforcement training center located in Sioux City. We audited the Meth
Initiative grants this entity received and found that the curriculum at the
training center is not focused on meth or any other drug. At the time of our
audit, we noted no classes focusing on hazardous waste disposal,
environmental issues, truck searches, children who were exposed to meth
lab sites, medical protocols, or meth case law. Rather, classes focused on
enhancing general law enforcement skills, such as interviewing and self-
defense. According to the responsible program manager, the COPS Office
has questioned some of the training curriculum at the Sioux City site, and an
official from the COPS External Affairs Division discussed the matter with the
responsible congressional staff member and was informed that the proposed
training curriculum, which was general and not focused on meth or drugs,
was the type of training that the region needed. Consequently, the COPS
Office awarded the Meth Initiative grant for the project.

Program Planning, Goals, and Objectives

       OMB Circular A-11, Part 6, requires that strategic goals and objectives
be quantitative, directly measurable, or assessment-based to allow for future
evaluation of achievement. We found that the COPS Office has not
developed an overall plan for strategically implementing the Meth Initiative
and has not established specific goals for the overall program. In addition,
the COPS Office has not identified other related efforts in the DOJ and has
not determined how the COPS Office’s efforts fit in with the DOJ’s Plan.
Officials in the COPS Office told us that they have not performed any
strategic planning for the program because the Meth Initiative began as a

                                    - 43 -
congressional undertaking and the COPS Office has only minimal control
over its execution.

       Because of the lack of strategic planning, the COPS Office is unable to
ensure that the objectives of individual grant applications will contribute to
an overall effort for combating meth or other drugs. Consequently, awards
under the Meth Initiative, particularly earmarked grants, have had widely
differing approaches. One example is the previously mentioned law
enforcement training center in Sioux City, Iowa, which has received over
$10 million in Meth Initiative funding since the inception of the program to
operate a general law enforcement training academy. Another example is
the Vermont State Police, which utilized the majority of its $2.4 million in
Meth Initiative funding for a multi-jurisdictional task force to combat heroin.
Moreover, a non-profit organization in Hawaii received over $8.4 million in
Meth Initiative funding for a variety of multi-drug related endeavors such as
after-school programs, treatment services, law enforcement activities, and
public awareness campaigns.

      In sum, we believe that establishing measurable goals and objectives
is a necessary prerequisite for ensuring that Meth Initiative funds will be
used in the most effective and efficient manner to address the meth problem
in America.

Distribution of Funds

      We reviewed the distribution of awards from the inception of the
program in FY 1998 through FY 2004 and compared the level of funding to
the number of meth-related incidents reported to EPIC over the same
period. We found that although certain states with high numbers of reported
meth incidents have received significant funding through the Meth Initiative,
other states with similar levels of reported meth incidents have not received
similar funding. Moreover, states with little to no reported meth seizures or
arrests have received considerable resources through the Meth Initiative.

       States where there is a high number of reported incidents, along with
a high level of Meth Initiative funding for the period of FYs 1998 through
2004, include California, Iowa, Washington, Oklahoma, and Missouri.
California, which ranked first in the nation with 13,377 laboratory seizures
over the period reviewed, received over $76.9 million in Meth Initiative
funding, placing it first in a ranking of states awarded funds. Also, Iowa was
second with grant funding of almost $16.2 million and had 4,488 seizures,
which ranked them fourth overall. Similarly, the state of Washington ranked
third in reported seizures with 6,356 seizures. Washington also was third in
a ranking of funds awarded and received more than $11.8 million in grants.

                                     - 44 -
Oklahoma ranked fifth in both lab seizures and funding with 4,403 reported
incidents and received almost $6.9 million in grants. Missouri had the
second largest number of reported lab seizures with 11,859 and ranked 10th
in funds awarded with nearly $3.7 million.

       However, there are imbalances in funding levels and reported incidents
in other locations. For example, between FYs 1998 and 2004, Vermont
reported only one lab seizure; however, the state has received almost
$1.3 million in Meth Initiative funding. Likewise, Hawaii reported only
76 seizures for the 7-year period, but received nearly $8.8 million in funding,
ranking the state fourth in dollars received. Other examples of imbalances
that we identified are Texas and Illinois. The state of Texas ranked 10th in the
number of seizures with 2,924 and was awarded over $1.3 million, ranking it
23rd in the nation in funds received from the Meth Initiative. Illinois was
ranked 11th in reported lab seizures with 2,833; however, the state ranked
25th in funds received over $1.3 million. A comparison of the funds awarded
and the reported seizures appears in the following chart. 30




      30
          The states not shown on the chart did not receive any meth funds through
FY 2004, and had few reported meth incidents.

                                         - 45 -
                          METH INITIATIVE FUNDS AWARDED
                         AND REPORTED LABORATORY SEIZURES
                              FY 1998 THROUGH FY 2004

           80,000,000
                                                                Grants Awarded        14,000
           70,000,000                                           Incidents Reported
                                                                                      12,000
           60,000,000

                                                                                      10,000
           50,000,000




                                                                                               Incidents
 Dollars




                                                                                      8,000
           40,000,000

                                                                                      6,000
           30,000,000


           20,000,000                                                                 4,000



           10,000,000                                                                 2,000


                   0                                                                  0




                          New Mexico
                                 Texas




                            Minnesota
                              Missouri




                              Montana




                             Michigan
                           Mississippi


                               Arizona

                           Tennessee




                             Kentucky




                               Nevada
                                   Iowa

                                Hawaii




                              Vermont
                            Oklahoma
                                   Utah


                               Virginia




                             Nebraska



                                 South




                                 Idaho
                                   Ohio
                             California




                               Indiana

                               Oregon
                             Alabama
                               Kansas




                         North Dakota




                             Colorado




                              Georgia

                                Florida
                             Arkansas




                            Louisiana
                         South Dakota




                                Illinois




                        North Carolina
                          Washington




                            Wisconsin




                         West Virginia
Source: OIG analysis of data from the COPS Office and the DEA’s El Paso Intelligence Center




       According to COPS officials, the high proportion of earmarked funds in
the $214.1 million they received through the Meth Initiative hampered their
ability to ensure that funds go to the states that have the largest meth
problem and thus provided the COPS Office with very little control over the
program. The current approach has resulted in significant imbalances
between the reported meth problem and the amount of money a location
receives through the Meth Initiative. Moreover, we believe the current
approach impairs the ability of the program as a whole to have a noticeable
impact on meth or any other specific drug problem in the United States.
However, as noted on page 42, congressional guidance since FY 2002 has
instructed the COPS Office to consult with the DEA on the earmarked
projects and to grant funds only if warranted. Therefore, the COPS Office
should be consulting with the DEA to help ensure that funds are awarded
appropriately.

                                         - 46 -
OIG Overview of Meth Problem

      According to COPS officials and local law enforcement personnel
interviewed, at the inception of the Meth Initiative in FY 1998, meth was
mainly a problem in Western states. Officials indicated that the problem
then spread throughout the Midwest and South and is now making inroads in
the East. As evidenced by statistics reported to EPIC, in FY 1998, California
reported the most laboratories seized with 1,921. Missouri was next with
322, and Oregon was third with 211. By FY 2004, the largest number of lab
seizures had moved to the middle section of the country. At the end of
FY 2004, Missouri had the most reported seizures with 2,784, followed by
Iowa with 1,513, and Tennessee was third with 1,369. The following set of
maps show the meth incidents reported to EPIC in FY 1998 and in FY 2004. 31




       31
           As noted previously, reporting is voluntary except in three states – California,
Missouri, and Oklahoma – which have mandatory reporting requirements.

                                            - 47 -
             REPORTED METH LABORATORY SEIZURES
                 FISCAL YEARS 1998 AND 2004
                               FISCAL YEAR 1998




                               FISCAL YEAR 2004




Source: The DEA’s El Paso Intelligence Center



                                       - 48 -
Overall Program Evaluation

       In FY 1999, the COPS Office used discretionary monies to fund an
evaluation of 6 of the 10 initial Meth Initiative awards. 32 The resulting
evaluation report presented an introduction to meth, its history, production
methods, and its impact on people’s health and the environment. The report
also included individual chapters for each of the six sites and described their
implementation efforts, challenges, and successes. In addition, it contained
general observations on community policing strategies used to help reduce
meth abuse and focused on intervention, prevention, treatment, and trends.
Finally, the report provided a series of recommendations on how grantees
can successfully fight meth. However, the evaluators stated that several
constraints, including funding, time, and data, prohibited them from
examining the impact of the Meth Initiative. The former Meth Team leader
was aware of the study, but did not know if the recommendations had been
implemented.

       The Meth Initiative is now in its eighth year of funding and at least
5 years have elapsed since the above-described initial evaluation of only a
limited number of individual projects. However, the COPS Office has not
performed or commissioned a full evaluation of the program as a whole.
This lack of program review and evaluation, combined with the lack of
established program goals and milestones, has resulted in the COPS Office
being unable to gauge the effectiveness of the millions of dollars awarded
under the Meth Initiative.

       The COPS Office has information already available to it in quantitative
and narrative form that COPS could use to help in evaluating the overall
effectiveness of the program. For example, the COPS Office could
periodically review the quantitative data that state and local law
enforcement agencies report to EPIC. This approach could identify and track
trends in meth and other drug-related crime. The COPS Office also could
review grantees’ program progress reports to identify successful approaches
and projects and disseminate this type of information to other grantees. 33




       32
            The excluded grants included two awards totaling $19.4 million for training
initiatives, one award with expenditures of less than $100,000, and the award that funded
the evaluation.
       33
          The requirements for grantee progress reports and a description of these reports
can be found on page 35.

                                          - 49 -
Conclusion

       Congressional earmarks have heavily influenced the Meth Initiative
since its inception in 1998. However, the significant use of earmarks in this
endeavor has not ensured that grant funds are directed to locations with the
greatest need. Because the COPS Office has been reactive to the spending
specifications of Congress, it has not been in the position to assert full
control over the program, including the establishment of program goals and
measurements. However, without a more strategic plan for the use of the
significant funding available through this program, the COPS Office’s
attempts to address the meth crisis likely will continue to yield variable
results.

Recommendations

We recommend that the COPS Office:

  16.   Review all grant applications from earmarked entities, consult with
        the DEA, and as necessary coordinate with Congress when grant
        applications do not appear to be warranted or are not consistent
        with the intent of the Meth Initiative.

  17.   To assist in measuring program effectiveness on a regular basis,
        periodically review and assess individual grant outcomes and
        results, as well as meth-related statistics and research and
        disseminate this type of information to Meth Initiative grantees.




                                    - 50 -
              STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the COPS Meth Initiative, we
considered the COPS Office’s control structure over the Meth Initiative for
the purpose of determining our audit procedures. This evaluation was not
made for the purpose of providing assurances on its internal control
structure as a whole. However, we noted certain matters involving internal
controls that we consider reportable matters under the Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the internal control
structure that, in our judgment, could adversely affect the COPS Office’s
ability to effectively oversee the meth grants. We identified weaknesses in:
(1) the program’s effectiveness, (2) the COPS Office’s management and
administrative controls over grant activities, and (3) inadequate monitoring
of grant awards. We discuss these issues in the Findings and
Recommendations section of the report. Because we are not expressing an
opinion on the COPS Office’s internal control structure as a whole, this
statement is intended for the information and use of the COPS Office’s
management in administering the Meth Initiative.




                                     - 51 -
                                                                             APPENDIX I



              OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The audit we completed of the COPS Meth Initiative pursued the
following objectives: (1) assess the adequacy of the COPS Office’s
administration of Meth Initiative grants and its monitoring of grantee
activities; and (2) evaluate the extent to which grantees have administered
the grants in accordance with applicable laws, regulations, guidelines, and
terms and conditions of the grant awards.

Scope and Methodology

      We performed the audit in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly included such tests of the records and procedures that we
considered necessary. Generally, the audit covered the period from
FYs 1998 through 2005.

       To accomplish our objectives, we conducted work at the COPS Office in
Washington, D.C., including interviews with various officials and staff within
the Administrative (Information Technology Department) Division, Grant
Administration Division, Monitoring Division, Finance Division, and External
Affairs Division. We also interviewed officials from other Department of
Justice components, including the Office of Justice Programs and the Drug
Enforcement Administration. Further, we obtained budgetary information
from the Justice Management Division. We also attended the 2005 COPS
Meth Conference to obtain background information and made contacts to
obtain other relevant information, such as statistics on meth seizures from
the DEA’s El Paso Intelligence Center (EPIC). Subsequently, EPIC provided
us with data for FYs 1998 through 2004.

       We also examined budget documents; grant manuals;
correspondence; and historical information about the meth problem, policies,
procedures, public laws, and related legislative history. We reviewed a
judgmental selection of the COPS Office meth grant files for completeness
and evidence of monitoring and analyzed results from 13 external audits of
meth grants for any commonality among the findings. We selected grantees
based on the dollars awarded, type of program funded, and geographic
distribution. 34 We conducted additional audit work at 6 of the 13 external


      34
           For a description of the grantees’ proposed use of grant funds, see Appendix IV.


                                           - 52 -
                                                                APPENDIX I


grant sites to determine if the individual grant award objectives of the Meth
Initiative had been established and met.




                                    - 53 -
                                                                       APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

                                                                   AMOUNT         PAGE
                                 35
FUNDS PUT TO BETTER USE:

   Funds from expired grants 36                                    $365,639         26
                                                                                    1




TOTAL FUNDS PUT TO BETTER USE                                        365,639



Total Dollar-Related Findings                                     $365,639




      35
       Funds Put to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.
      36
         The amount does not include an additional $134,729 in expired grant funds from
three awards already in Office of the Community Oriented Policing Services
Methamphetamine Initiative Grants Administered by the Sioux City, Iowa Police Department
(OIG Report Number GR-50-05-007).

                                        - 54 -
                                                                          APPENDIX III


             METH INITIATIVE GRANTS AUDITED BY THE OIG

         The Office of the Inspector General, Audit Division, audited 44 grants
   at these 13 sites during FY 2004 and FY 2005, as shown in the table below.
GRANTEE NAME               GRANT NUMBERS        AWARD PERIOD             OIG REPORT NUMBER
Alabama Department of      2001-CKWX-0168      05/01/01 – 12/31/04
                                                                            GR-40-05-009
Public Safety              2003-CKWX-0265      08/01/03 – 04/30/05
                           2001-CKWX-0158      05/01/01 – 12/31/05
Arkansas State Police                                                       GR-80-04-006
                           2002-CKWX-0178      07/01/02 – 09/30/04
                           2001-CKWX-0160      05/01/01 – 05/31/05
                           2002-CKWX-0371      09/01/02 – 12/31/05
California Department of   2002-CKWX-0372      09/01/02 – 12/31/05
                                                                            GR-90-06-005
Justice                    2003-CKWX-0263      08/01/03 – 12/31/05
                           2003-CKWX-0065      02/20/03 – 06/30/06
                           2004-CKWX-0030      01/23/04 – 01/31/06
                           2001-CKWX-0175      05/01/01 – 03/31/03
                           2002-CKWX-0171      07/01/02 – 06/30/04
Indiana State Police                                                        GR-50-05-010
                           2003-CKWX-0092      02/20/03 – 05/10/05
                           2004-CKWX-0028      01/23/04 – 01/31/06
Kansas Bureau of           2001-CKWX-0003      05/01/01 – 10/31/03
                                                                            GR-60-04-006
Investigation              2002-CKWX-0181      07/01/02 – 06/30/04
                           2002-CKWX-0204      07/01/02 – 12/31/04
Marion County, Oregon,
                           2003-CKWX-0095      02/20/03 – 12/31/05          GR-90-06-004
Sheriff’s Office
                           2002-CKWX-0368      09/01/02 – 11/30/04
                           2001-CKWX-0172      05/01/01 – 11/30/04
Mississippi Bureau of      2002-CKWX-0216      07/01/02 – 06/30/05
                                                                            GR-40-05-001
Narcotics                  2003-CKWX-0089      02/20/03 – 07/30/05
                           2003-CKWX-0346      09/01/03 – 06/30/05
Oklahoma State Bureau
                           2001-CKWX-0173      05/01/01 – 01/31/03          GR-80-04-007
of Investigation
                           2002-CKWX-0208      05/01/02   –   12/31/04
Pierce County ,
                           2003-CKWX-0070      02/20/03   –   06/30/05      GR-90-06-003
Washington, Alliance
                           2004-CKWX-0034      01/23/04   –   01/31/06
                           2001-CKWX-0110      04/01/01   –   09/30/04
Prairie View Prevention
                           2002-CKWX-0234      09/30/02   –   03/31/05      GR-60-05-008
Services of South Dakota
                           2004-CKWX-0367      01/23/04   –   01/20/06
                           1998-CKWX-0054      10/01/97   –   09/30/99
                           1999-CKWX-0019      03/10/99   –   09/30/00
Sioux City, Iowa, Police   2000-CKWX-0222      08/01/00   –   11/01/01
                                                                            GR-50-05-007
Department                 2001-CKWX-K052      02/01/01   –   10/30/02
                           2002-CKWX-K005      03/01/02   –   09/30/03
                           2003-CKWX-K038      06/01/03   –   09/30/04
                           2001-CKWX-0165      05/01/01   –   06/30/04
                           2002-CKWX-0206      07/01/02   –   03/31/05
Virginia State Police                                                       GR-30-05-005
                           2003-CKWX-0064      02/20/03   –   02/28/05
                           2004-CKWX-0021      01/23/04   –   01/31/06
                           2001-CKWX-0166      05/01/01   –   10/31/03
                           2002-CKWX-0207      07/01/02   –   12/30/04
Vermont State Police                                                        GR-70-06-001
                           2003-CKWX-0093      02/20/03   –   03/31/05
                           2004-CKWX-0314      01/23/04   –   01/31/06




                                            - 55 -
                                                             APPENDIX IV


            PROGRAM DESCRIPTIONS OF THE
        13 AUDITED METH INITIATIVE GRANTEES

1.   Alabama Department of Public Safety received two grants
     totaling $1,048,350. The purpose of the program was to provide:
     (1) training, equipment, and overtime to the Alabama Bureau of
     Investigation for investigating meth cases; and (2) training to agents
     to properly package and transport hazardous meth by-products.

2.   Arkansas State Police received two grants totaling $1,850,000.
     The purpose of the program was to: (1) provide training, equipment,
     and overtime to Arkansas State Police officers and 75 additional
     certified laboratory entry officers; and (2) set up operational safety
     standards and support services upon request to respond and assist
     law enforcement agencies in the seizure of meth laboratories.

3.   California Department of Justice received six grants totaling
     $16,650,153. The purpose of the program was to: (1) establish and
     equip a Western States regional training center to train law
     enforcement personnel on the investigation and dismantling of
     clandestine drug labs and the investigation of large-scale meth
     traffickers, and (2) support enforcement teams to target chemical
     sources and major meth traffickers or organizations.

4.   Indiana State Police received four grants totaling $3,431,234. The
     purpose of the program was to provide: (1) training, equipment, and
     overtime to law enforcement personnel to assist county, state, and
     local law enforcement agencies in dismantling clandestine
     laboratories; (2) Occupational Safety and Health Administration
     certification training to law enforcement personnel; (3) statewide
     awareness training to public safety personnel pertaining to
     clandestine laboratories; (4) forensic evaluation of meth in support of
     criminal prosecutions; and (5) support, information, and education
     about meth to public entities outside the law enforcement
     community.

5.   Kansas Bureau of Investigation received two grants totaling
     $2,495,600. The purpose of the program was to: (1) assist state
     and local law enforcement agencies in reducing the production,
     distribution, and use of meth through training, and equipping local
     officers to respond to and investigate clandestine meth laboratories
     in their communities; and (2) hire and train forensic scientists to help
     eliminate the bottleneck in obtaining evidence to prosecute meth
     cases.

                                  - 56 -
                                                            APPENDIX IV



6.   Marion County, Oregon, Sheriff’s Office received three grants
     totaling $1,227,400. The purpose of the program was to:
     (1) provide training, and to purchase equipment for local rural law
     enforcement agencies to investigate and dismantle laboratories; and
     to prosecute those involved in the production, distribution, and use of
     meth; and (2) ensure that authorities assess and treat children
     located in meth-contaminated homes for medical and psychological
     issues upon removal from the home.

7.   Mississippi Bureau of Narcotics received four grants totaling
     $2,611,925. The purpose of the program was to: (1) provide
     training, equipment, and overtime for law enforcement officers to
     investigate and dismantle clandestine meth laboratories; (2) reduce
     the availability of meth and enhance coordination and cooperation
     amongst law enforcement agencies; (3) establish protocols for a drug
     endangered children’s program with local, state, and federal
     organizations to identify and protect children that are exposed to
     meth; and (4) provide public knowledge on the harm that meth
     production and use creates.

8.   Oklahoma State Bureau of Investigation received a grant for
     $1,496,700. The purpose of the program was to: (1) provide
     training and equipment for law enforcement officers to respond safely
     to clandestine meth laboratories, (2) sponsor five clandestine
     laboratory safety schools to train law enforcement officers, and
     (3) purchase laboratory equipment for the Oklahoma State Bureau of
     Investigation Drug Identification Laboratory.

9.   Pierce County, Washington, Alliance received three grants totaling
     $8,959,454. The purpose of the program was to: (1) work with the
     Governor’s Meth Coordinating Committee to develop a comprehensive
     and integrated program that involved law enforcement, intelligence,
     forensics, health services, community mobilization, public education,
     and prevention components; (2) improve enforcement, and decrease
     the illicit production of meth; and (3) provide prevention, treatment,
     and training resources to mobilize communities across the state.

10. Prairie View Prevention Services of South Dakota received
    three grants totaling $2,090,788 for a program to provide:
    (1) awareness and education on the use and prevention of meth;
    (2) services and resources to all regions of the state to stop the use
    and abuse of meth, and to deter meth manufacturing and sales; and



                                 - 57 -
                                                            APPENDIX IV


    (3) develop and implement comprehensive research-based
    prevention strategies.

11. Sioux City, Iowa, Police Department received six grants totaling
    $10,080,858. The stated purpose of the program was to:
    (1) operate a regional methamphetamine training center; (2) provide
    training to law enforcement agencies concentrated in but not limited
    to a 150-mile radius of the Sioux City, Iowa, Police Department, with
    an emphasis on small town and rural law enforcement agencies; and
    (3) educate law enforcement officers on how to identify meth, deal
    with the violators, and eradicate the problem.

12. Virginia State Police received four grants totaling $1,740,939. The
    purpose of the program was to: (1) establish, equip, and operate
    regional meth task forces in the state; and (2) provide the state
    police with training to help reduce illegal meth-producing laboratories
    and meth-related crimes throughout the state.

13. Vermont State Police received four grants totaling $2,384,106. In
    its applications, the grantee stated that the purpose of the proposed
    program was to: (1) hire and train five additional state troopers with
    the intention of reducing the growing heroin problem in the state,
    (2) conduct investigations, (3) educate and work with the
    community, and (4) establish long-term solutions for the growing
    heroin problem.




                                 - 58 -
                                                                           APPENDIX V


            EXPIRED GRANTS ELIGIBLE FOR CLOSURE




                                            Grant             Award           Funds
            Grantee
                                           Number            End Date        on Hand
Sioux City, Iowa, Police Dept.        1998CKWX0054          09/30/1999       $134,588

Sioux City, Iowa, Police Dept.        2000CKWX0222          10/31/2001            48
Circle Solutions, Incorporated,
                                      2001CKWX0167          11/30/2002           397
            Virginia
Sioux City, Iowa, Police Dept.        2002CKWXK005          09/30/2003            93
   Ozarks Multi-Jurisdictional
                                      2002CKWX0170          12/30/2003           221
 Enforcement Team, Missouri
Circle Solutions, Incorporated,
                                      2002CKWX0175          01/01/2004           151
            Virginia
St. Tammany Parish, Louisiana,
                                      2002CKWX0184          06/30/2003         65,627
        Sheriff’s Dept.
  Oklahoma City, Oklahoma             2002CKWX0203          03/31/2004         26,646
 Montgomery County, Kansas,
                                      2002CKWX0338          08/31/2003        222,222
     Sheriff’s Department
Pearl River County, Mississippi,
                                      2002CKWX0404          03/31/2004          4,454
         Sheriff’s Dept.
 Boonville, Missouri, Municipal
                                      2002CKWX0405          03/31/2004         45,921
       Police Department
             TOTAL                                                          $500,368
Source: The COPS Office and the Office of the Inspector General analysis




                                        - 59 -
                                                                                                                                                                                                               APPENDIX VI

                                                            BREAKDOWN OF FINDINGS BY AUDITED GRANTEE




                                                                                                                                                                                                                 California
                                                                                                                                                                           Mississippi




                                                                                                                                                                                                                                       Washington
                                             Arkansas



                                                               Oklahoma




                                                                                                Alabama




                                                                                                                                                                                                Vermont
                                                                                                                                                        Virginia
                                                                                                                 Indiana




                                                                                                                                              Oregon
                             Kansas




                                                                                                                                Dakota




                                                                                                                                                                                                                                                             Totals
                                                                                                                                South
                                                                                   Iowa
       Cost
     Category

 Unallowable:
 Promotional items/
 Equipment                       $0         $27,000                       $0    $439,871       $27,795              $0            $1,223       $0      $1,421                $900                $3,409                   $0              $0               $501,619
 Personnel                  152,423               0                        0           0         9,600         509,233            49,231        0           0              35,607             1,199,676                    0      1,465,329 37            3,421,099
 Contracts                        0               0                        0           0             0               0             8,126        0           0                   0                     0                    0                 0                8,126
 Various 38                       0               0                        0      13,720           500          10,075               927        0           0                   0                 7,682                    0                0                32,904
 Travel/meals                     0               0                        0           0         3,476           2,973             3,784        0           0                   0                     0                    0                 0               10,233
 Excess Drawdowns                 0               0                        0       9,663             0               0           112,052        0           0                   0                     0                    0                0               121,715
 Excess Budget
 Deviations                  46,451               0          692,414             501,177             0               0                 0          0         0                   0                     0                       0            0              1,240,042
 Physical exams                   0               0                0                   0             0          10,091                 0          0         0                   0                     0                       0            0                 10,091
      Subtotal              198,874          27,000          692,414             964,431        41,371         532,372           175,343          0     1,421              36,507             1,210,767                       0    1,465,329              5,345,829
 Unsupported:
 Personnel                            0       6,258                       0            0             0               0           266,406          0           0            718,646                        0                   0            0                991,310
 Contracts                            0           0                       0            0             0               0            28,274          0           0                  0                        0                   0      948,769                977,043
 Travel/meals                         0           0                       0            0         2,550               0            10,498          0           0                318                        0                   0            0                 13,366
 Equipment                            0           0                       0            0        69,827           1,829                 0          0           0                  0                        0                   0            0                 71,656
 Drawdowns                            0     827,063                       0            0             0               0                 0          0         656          1,213,304                        0                   0            0              2,041,023
 Various                              0           0                       0       78,792             0               0             4,603          0           0                  0                        0                   0            0                 83,395
      Subtotal                        0     833,321                       0       78,792        72,377           1,829           309,781          0         656          1,932,268                        0                   0      948,769              4,177,793
    Total Costs
    Questioned           $198,874          $860,321         $692,414           $1,043,223     $113,748        $534,201          $485,124       $0      $2,077           $1,968,775           $1,210,767                   $0      $2,414,098             $9,523,622
   Management
   Improvement
 Recommendations                       2                7                  1              6               2                 8             6       1                 1                    4                 3                  2                      0                43
   Funds Put To
     Better Use                       $0    $15,000                       $0    $134,729       $18,000                     $0            $0    $0                  $0     $98,127                         $0   $16,575                              $0    $282,431
Source: Office of the Inspector General Audit Reports




                       37
                             Questioned personnel costs were all incurred for officers under sub-recipient contracts with law enforcement entities.
                       38
                             Minor costs in areas such as supplies, personal purchases, pagers, administrative costs, and printing are listed herein.

                                                                                                                           - 60 -
                                                                                                                    APPENDIX VII


                                         METH INITIATIVE GRANTS TO STATES 39
                                              FY 1998 THROUGH FY 2005
State                 1998           1999          2000          2001         2002          2003        2004         2005         Total
Alabama                       $0            $0            $0     $748,350     $444,444     $1,144,475   $728,901      $256,527   $3,322,697
Alaska                         0             0            0             0             0            0           0            0             0
Arizona                 750,000       149,658             0             0     1,920,165            0           0            0     2,819,823
Arkansas                750,000       299,685             0     1,496,700     1,541,683      645,775     659,640       295,993    5,689,476
California           18,200,000    18,700,000    18,200,000     5,686,800     7,426,666     5,224,000   3,463,170    1,983,152   78,883,788
Colorado                       0             0            0             0      222,222       350,000     329,800       345,325    1,247,347
Connecticut                    0             0            0             0             0            0           0            0             0
Delaware                       0             0            0             0             0            0           0            0             0
District of
                               0             0            0             0             0            0           0            0             0
Columbia
Florida                        0             0            0             0             0      248,375           0       246,661     495,036
Georgia                        0             0            0             0      222,222             0     329,800            0      552,022
Guam                           0             0            0             0             0            0           0        98,664      98,664
Hawaii                         0             0            0       249,450             0     3,974,000   4,551,596    5,919,859   14,694,905
Idaho                          0             0            0       798,240             0            0           0            0      798,240
Illinois                100,000              0            0             0      290,000       596,100     329,800       246,661    1,562,561
Indiana                        0             0            0       748,350      722,222      1,490,250    692,634       246,661    3,900,117
Iowa                   1,200,000    1,646,766     1,199,998             0     2,585,782     4,919,450   4,617,509    2,269,280   18,438,785
Kansas                         0             0            0     1,995,600     2,469,666      372,564    1,285,631      295,993    6,419,454
Kentucky                       0             0            0       748,350             0      300,000     527,696       246,661    1,822,707
Louisiana                      0             0            0       299,340      722,222        99,350    1,038,951      295,993    2,455,856
Maine                          0             0            0             0             0            0           0            0             0
Maryland                       0             0            0             0             0            0           0            0             0


              39
                   The Territory of Guam and the District of Columbia are also included.

                                                                     - 61 -
                                                                                                    APPENDIX VII

State            1998       1999        2000       2001         2002        2003        2004         2005         Total
Massachusetts           0          0           0          0            0           0           0            0             0
Michigan                0          0           0          0      222,222           0           0            0      222,222
Minnesota         748,145          0           0          0      489,082           0           0      197,329     1,434,556
Mississippi             0          0           0    997,800     1,246,222   1,243,500    164,900     1,356,634    5,009,056
Missouri                0    446,523           0          0     1,805,405    596,100     847,145      913,632     4,608,805
Montana                 0          0           0          0     2,500,000          0           0      739,983     3,239,983
Nebraska                0    267,377           0          0      222,222     796,750     626,643      493,322     2,406,314
Nevada                  0    287,843           0    249,450      444,444           0     296,843            0     1,278,580
New Hampshire           0          0           0          0            0           0           0            0             0
New Jersey              0          0           0          0            0           0           0            0             0
New Mexico              0          0           0          0      222,222     312,000     329,800            0      864,022
New York                0          0           0          0            0           0           0     1,973,286    1,973,286
North Carolina          0          0           0          0            0     312,000           0      369,990      681,990
North Dakota            0          0           0          0      200,000     496,750    1,071,908     986,643     2,755,301
Ohio                    0          0           0          0            0     794,800           0            0      794,800
Oklahoma          750,000    256,098           0   1,496,700    2,127,666   1,412,396    824,505      345,325     7,212,690
Oregon                  0    300,000           0          0     1,496,666    645,775     841,055     1,489,832    4,773,328
Pennsylvania            0          0           0          0            0           0           0       98,664       98,664
Rhode Island            0          0           0          0            0           0           0            0             0
South Carolina          0          0           0          0      222,222    1,018,337     98,948      223,315     1,562,822
South Dakota            0          0           0    598,680      750,000           0     742,108            0     2,090,788
Tennessee               0          0           0          0      666,666     746,750     956,443      493,322     2,863,181
Texas             749,999          0           0          0      444,444           0     164,900            0     1,359,343
Utah              750,000   1,600,000          0    798,240     1,045,103    993,500    1,088,425     739,982     7,015,250
Vermont                 0          0           0    399,120      399,964     496,750           0     1,726,626    3,022,460
Virginia          499,965     35,836           0    549,450      500,000    1,553,517    872,736      591,987     4,603,491
Washington              0          0           0   1,995,600    4,888,888   2,980,500   1,978,954    1,973,286   13,817,228
West Virginia           0          0           0          0      222,222           0           0            0      222,222


                                                       - 62 -
                                                                                                       APPENDIX VII

State              1998        1999         2000        2001        2002        2003        2004          2005         Total
Wisconsin                 0           0            0           0     550,000           0      49,474             0      599,474
Wyoming                   0           0            0           0           0           0           0             0             0
    Totals      $24,498,109 $23,989,786 $19,399,998 $19,856,220 $39,232,954 ,$33,763,764 $29,509,915   $27,460,598 $217,711,344
Source: The COPS Office




                                                           - 63 -
                                                                                                                  APPENDIX VIII
                                                                                                40
                                             METH LAB SEIZURES BY STATE
                                               FY 1998 THROUGH FY 2004
            State                1998         1999         2000        2001         2002             2003        2004       Total
Alabama                                 0           19          68          156          237            335        392         1,207
Alaska                                   7          13          22           20           31                36      60          189
Arizona                               170         339          384          364          256            173        121         1,807
Arkansas                              148         350          249          387          372            773        832         3,111
California                          1,921       2,900        2,283         2,029        1,892          1,440       912        13,377
Colorado                                40          99         132          192          433            407        263         1,566
Connecticut                             0            0            0           1            1                2           0           4
Delaware                                 0           0            2           0            0                1           4           7
District of Columbia                    0            0            0           0            0                0           0           0
Florida                                 3           16          24           26          118            214        312          713
Georgia                                 6           29          55           44          117            240        241          732
Guam                                    0            0            0           0            0                0           0           0
Hawaii                                  25          14            7           8            7                7           8           76
Idaho                                   6         135          128          136          127            104         51          687
Illinois                                28        107          139          261          525            684       1,089        2,833
Indiana                                 1         131          309          471          668           1,011      1,072        3,663
Iowa                                    20        277          285          486          776           1,131      1,513        4,488
Kansas                                  53        150          574          823          775            713        668         3,756
Kentucky                                6           56          98          165          354            457        592         1,728
Louisiana                               4            6          18           13          122                97     112          372
Maine                                   0            1            1           4            0                0           2           8
Maryland                                 0           0            1           1            1                3           4           10
Massachusetts                           4            0            0           1            2                0           4           11


           40
                The Territory of Guam and the District of Columbia are also included.


                                                                  - 64 -
                                                                                          APPENDIX VIII

           State   1998        1999       2000       2001         2002       2003        2004       Total
Michigan                  1       11         10            104      201         273        281          881
Minnesota                 21      71        132            150      217         325        201         1,117
Mississippi               9       39        122            210      437         373        321         1,511
Missouri              322        424        781           1,912    2,627       3,009      2,784       11,859
Montana                   1       17         26             60       90             77      66          337
Nebraska                  4       18         22            152      344         301        229         1,070
Nevada                    11     243        275            268      143         134         93         1,167
New Hampshire             0           1          1           1           2          1           2           8
New Jersey                 0          1          1           3           3          1           1           10
New Mexico                16      55         50             69      125         199        143          657
New York                   0          2          1           5       24             23      47          102
North Carolina            0           8      11             30       42         140        281          512
North Dakota               0      12         26             69      171         279        200          757
Ohio                      1       18         14             90       84         141        199          547
Oklahoma              117        357        374            817      791        1,066       881         4,403
Oregon                211        289        318            519      580         435        474         2,826
Pennsylvania               6          3          6          13       35             54     109          226
Rhode Island              0           0          0           1           2          0           1           4
South Carolina            3           6          6           6       30             52     167          270
South Dakota              0           1          5          18       31             38      36          129
Tennessee                 40     128        191            498      556         849       1,369        3,631
Texas                     24     145        350            663      517         676        549         2,924
Utah                      54     235        228            172      133             85      85          992
Vermont                   0           0          0           0           0          0           1           1
Virginia                  1           8          1           4           6          32      64          116
Washington            143        509        871           1,459    1,384       1,118       872         6,356



                                                 - 65 -
                                                                                            APPENDIX VIII

         State            1998        1999       2000       2001      2002     2003        2004     Total
 West Virginia                    1          4          2        15       44          58      142       266
 Wisconsin                       1           5       16          43       63      122          81       331
 Wyoming                         12        17        13          28       52          34       25       181
 Totals                       3,441      7,269    8,632     12,967    15,548   17,723      17,956    83,536
Source: The DEA El Paso Intelligence Center




                                                        - 66 -
                                                                                                                     APPENDIX IX


                                        SUMMARY OF FINDINGS FOR
                                OIG AUDITS OF 13 METH INITIATIVE GRANTEES
                                                              Number              Questioned Costs 42           Funds to    Total Dollar
                            Report        Amount
      Grantee                                                   Of                                               Better       Related
                            Number        Awarded                              Unsupported     Unallowable
                                                         Recommendations 41                                       Use        Findings
 Alabama Department
                           GR-40-05-009     $1,048,350           8                  $72,377         $41,371       $18,000      $131,748
    of Public Safety
 Arkansas State Police     GR-80-04-006      1,850,000           12                 833,321          27,000        15,000       875,321
California Department
                           GR-90-06-005     16,650,153           3                        0                0       16,575        16,575
       of Justice
 Indiana State Police      GR-50-05-010      3,431,234           13                   1,829         532,372            0        534,201
   Kansas Bureau of
                           GR-60-04-006      2,495,600           11                       0         198,874            0        198,874
     Investigation
   Marion County,
                           GR-90-06-004      1,227,400           1                        0                0           0              0
Oregon, Sheriff’s Office
 Mississippi Bureau of
                           GR-40-05-001      2,611,925           13                1,932,268         36,507        98,127      2,066,902
       Narcotics
   Oklahoma State
                           GR-80-04-007      1,496,700           2                        0         692,414            0        692,414
Bureau of Investigation

   Pierce County,
                           GR-90-06-003      8,959,454           6                  948,769        1,465,329           0       2,414,098
 Washington, Alliance
Prairie View Prevention
                           GR-60-05-008      2,090,788           25                 309,781         175,343            0        485,124
Services South Dakota
Sioux City, Iowa, Police
                           GR-50-05-007     10,080,858           15                  78,792         964,431       134,729      1,177,952
     Department
 Vermont State Police      GR-70-06-001      2,384,106           8                        0        1,210,767           0       1,210,767
 Virginia State Police     GR-30-05-005      1,740,939           3                      656             1,421          0           2,077

                 Totals                   $56,067,507           120              $4,177,793      $5,345,829     $282,431      $9,806,053
    Source: Office of the Inspector General Summary of Audit Report Findings


         41
              Recommendations also include management improvements, which may not have a related-dollar amount.
         42
              See Appendix VI for a detailed breakdown of dollar-related finding categories per grantee.


                                                                      - 67 -
                                     APPENDIX X


COMMUNITY ORIENTED POLICING SERVICES RESPONSE
            TO THE DRAFT REPORT




                    - 68 -
         APPENDIX X




- 69 -
         APPENDIX X




- 70 -
         APPENDIX X




- 71 -
         APPENDIX X




- 72 -
         APPENDIX X




- 73 -
         APPENDIX X




- 74 -
         APPENDIX X




- 75 -
         APPENDIX X




- 76 -
         APPENDIX X




- 77 -
         APPENDIX X




- 78 -
         APPENDIX X




- 79 -
         APPENDIX X




- 80 -
         APPENDIX X




- 81 -
                                          APPENDIX X




OIG Note: Attachments not included for brevity.



                    - 82 -
                                                               APPENDIX XI


          OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                 CLOSE THE REPORT

      The COPS Office concurred with our recommendations and discussed
the actions it has already taken and others it will implement in response to
our recommendations. However, before addressing each response to the
OIG recommendations, we are providing the following comments on the
COPS Office’s response to the draft report.

      In Appendix X, pages 68 and 69, the COPS Office provided the
following general comments:

      The COPS Office undertakes funding decisions on a case-by-case review
      because state and local law enforcement agencies are on the front line
      and know better what their communities need in order to address their
      emerging law enforcement issues. The COPS Office will fund any
      lawfully allowable item based on the grantee demonstrating need.
      COPS guidance contains a list of certain items that are generally not
      acceptable to buy with COPS funds…unless the circumstances show they
      are critical to the implementation of the grantee’s specific Meth project.
      That list was compiled based on our experience that those types of
      basic, day-to-day policing items, albeit necessary for general policing,
      may not be aimed specifically at Meth. As the COPS Office makes
      absolutely clear, however, the lists are of general guidance, subject to
      the exception of justifying a link to the grantee’s particular
      circumstances. In short, (1) what the OIG calls “generally prohibited”
      items are not prohibited under program guidelines if they correlate to
      the project objective, and (2) the same process is applied to all awards.

      We believe that we have characterized this issue appropriately in our
report. Our report noted that about a third of the grantees reviewed in our
audit received permission to fund items on the list of generally unallowable
costs. Moreover, this list is contained within the 1999, 2001, and 2002
COPS Meth Grant Manuals, which we found were not provided to several
Meth Initiative grantees. Therefore, some grantees may not have been
aware of what items were generally prohibited. We believe that this creates
the perception of a double standard. Further, the high percentage of
grantees provided with an exception for the purchase of generally allowable
items indicates that the approval of exceptions has become a regular
occurrence and is no longer used under extremely limited and extenuating
circumstances, as stated directly on the “FY 2005 Meth Program List of
Unallowable Costs” that was provided to grant monitors.


                                    - 83 -
                                                             APPENDIX XI



     In Appendix X, pages 68 through 82, the COPS Office provided
responses to the OIG recommendations, which we analyze in turn:

Recommendation Number:

1.   Resolved. The COPS Office concurred with our recommendation and
     agreed that an agency-wide plan with policies and procedures is
     necessary to implement all COPS grant programs, including the Meth
     Initiative. This recommendation can be closed when the COPS Office
     provides a formal plan with policies and procedures for implementing
     the Meth Initiative. The plan should include goals, objectives, and
     performance measures for the initiative, including both earmarked and
     discretionary funding. Further, please provide us with evidence of
     coordination with other key agencies, including the DEA, in determining
     the most valuable and beneficial purposes for using funds appropriated
     to the Meth Initiative.

2.   Resolved. The COPS Office concurred with our recommendation to
     develop an improved communication method to promote consistency
     in grant oversight. As noted in our report, meth grant monitors (from
     various divisions within the COPS Office) were not administering
     awards in a consistent manner. To address these inconsistencies, the
     COPS Office stated that the Meth Team will now include
     representatives from the other divisions with responsibility for Meth
     Initiative grants. However, in order to ensure policies and procedures
     are adequately communicated, we believe that the representatives
     assigned to the Meth Team should be actual meth grant monitors.

     This recommendation can be closed when we receive a copy of the
     notice given to the Meth Team leader to ensure that all meth awards,
     including those assigned to other divisions, are administered in a
     consistent manner. Also, please provide evidence (such as an updated
     Meth Team listing) of the assignment of meth grant monitors from
     other divisions to the Meth Team, notification to the new members of
     the requirement to participate and meet regularly with the Meth Team,
     and documentation to support the provision of the Meth Grant Manual
     to all Meth Initiative grant monitors.

3.   Resolved. The COPS Office concurred with our recommendation and
     stated it has implemented additional steps to ensure the accuracy and
     completeness of grant information in the CMS. In its response, the
     COPS Office stated that the program team leader or designee reviewed
     the grant data entered to ensure it matched the award information and

                                  - 84 -
                                                              APPENDIX XI


     that an additional quality control review was performed when the grant
     went through an administrative function (extension, modification,
     withdrawal, or closeout). Our review noted numerous errors, omissions,
     and discrepancies in the CMS data originally provided, which had to be
     entered or corrected to provide an accurate and complete listing of meth
     award grantees and other information. This indicated that prior quality
     control procedures were not being followed or the existing controls were
     inadequate.

     In its response, the COPS Office stated it will institute the following
     quality control steps: (a) upon obligation of all accepted awards, the
     program team leader and database administrator will reconcile the
     obligated amounts to total award amounts in the CMS; and (b) the
     database administrator will review newly accepted records to ensure
     that certain key record fields have been populated and report
     discrepancies to the program team leader for resolution and correction.
     While the reconciliation and resolution of funding discrepancies will
     identify funding errors in specific awards, and the database
     administrator’s review should identify missing data in key data fields, it
     does not appear to address the accuracy of data entry not related to
     award amounts. This recommendation can be closed when we receive
     evidence that the proposed quality control steps were implemented, as
     well as formalized procedures detailing how and when the program team
     leader’s review will be conducted and verified to ensure that CMS data is
     accurate and complete.

4.   Resolved. The COPS Office concurred with our recommendation that
     an updated CMS User’s Manual, including the Meth Initiative module,
     should be prepared and distributed to staff. According to its response,
     the COPS Office expects this manual to be distributed in 45-60 days,
     with the portion devoted to the Meth module containing the input of
     Meth program staff. This recommendation can be closed when we
     receive a copy of the updated manual and documentation to support
     that it has been distributed to all staff.

5.   Resolved. The COPS Office concurred with our recommendation to
     modify the access status of staff that do not require write-access to
     the Meth grant module in the CMS. Further, the COPS Office response
     stated that such access has been reviewed and modified and the most
     recent listing of users is limited to current Meth Team members, the
     GAD database administrator, and IT staff. This recommendation can
     be closed with we receive a current, approved listing of staff with
     write-access to the meth module that includes the reason access is
     necessary.

                                   - 85 -
                                                              APPENDIX XI



6.   Resolved. The COPS Office concurred with our recommendation that
     the user access listing should be periodically reviewed and updated.
     This recommendation can be closed when we receive the policy that
     formalizes the requirement for quarterly review of user status and
     evidence that the quarterly review for the period ending March 2006
     has been performed.

7.   Resolved. The COPS Office concurred that IT staff should periodically
     monitor staff log-out practices and provide reminders as necessary.
     The COPS Office cited several policies and procedures previously in
     effect which should have identified and corrected untimely employee
     log-off. However, because we found that the CMS identified Meth
     Team members who remained logged onto the system for at least 8
     months at a time while employed by the COPS Office, it appears that
     COPS Office staff were not following the established procedures. In its
     response, the COPS Office stated it will begin to receive and review a
     weekly report regarding all users and their log-on status. This
     recommendation can be closed when we receive a copy of the weekly
     log-in status reports for all users for the months of March, April, and
     August 2006. The COPS Office should highlight those instances where
     daily log-off did not occur, and confirm that it has taken action to
     address the issue.

8.   Resolved. The COPS Office concurred that audit trail capability will be
     included in the next upgrade of the CMS software. While the COPS
     Office response stated that a full audit trail could be constructed by
     querying the SQL Server transaction log, the COPS Office IT staff
     informed auditors during fieldwork that only the most recent change
     data and user was tracked in the system. This recommendation can
     be closed when we receive information regarding the next system
     upgrade, expected timeframes, and audit trail capability.

9.   Resolved. The COPS Office concurred with our recommendation that
     all meth awards should be monitored in a consistent fashion and that
     monitoring activities should be documented in the grant files. As
     noted in recommendation number 2, the COPS Office will now require
     representatives from both the Program, Policy Support, and Evaluation
     Division and the Training and Technical Assistance Division to regularly
     attend Meth Team meetings. The COPS Office will also distribute the
     Meth Grant Manual to all Meth Initiative grantees regardless of the
     awarding division.




                                   - 86 -
                                                               APPENDIX XI


      This recommendation can be closed when we receive a copy of the
      notice sent to all current meth grantees requiring them to comply with
      the Meth Grant Manual. In addition, please provide copies of any
      documents created to standardize the grant-monitoring process, such
      as during the application review process, semi-annual progress report
      form, delinquency letters, grant closeout review, and timeframes.
      Further, please provide us with a copy of the instruction issued to the
      grant monitors requiring them to document in the official grant file
      their monitoring activities in a more consistent fashion and on a more
      regular basis.

10.   Resolved. The COPS Office concurred with our recommendation to
      review and update the Meth Grant Manual, including standardization of
      submission dates for program progress reports and to ensure that all
      meth grants are administered consistently and grantees are required
      to adhere to the same guidelines. In its response, the COPS Office
      noted that a new manual was recently released. However, the COPS
      Office stated that it would be impossible to list within the grant manual
      a fixed schedule that would apply to all grantees as to when progress
      and final reports were due. Instead, the COPS Office stated it will
      begin to send out and request progress reports every 6 months using
      the date the award documents are mailed out. We believe that it is
      possible for the Meth Grant Manual to specify timeframes for progress
      reports because award start and end dates vary greatly between
      grantees. It is possible to set a fixed calendar schedule by stating
      progress reports are due, for example, every June and December until
      the grant ends. The grantees should also be given a timeframe
      specifying when the report is due, such as within 30 days after the
      report period’s end date. We believe that this is necessary because,
      as noted in our report, the lack of grant progress reports was
      substantially the result of the COPS Office’s failure to request reports
      be completed.

      Further, the COPS Office also noted that it telephoned contacts to
      obtain missing reports and was 99 percent successful for the program
      progress reports mailed out to grantees in October 2005. However,
      the timeliness of report submissions was not discussed. Our report
      noted that grant monitors were not routinely sending out progress
      report requests to grantees nor ensuring that missing reports were
      filed in those instances where they had originally been requested.
      Again, we believe that the program progress report form should be
      provided to grantees at the start of the award and that grantees
      should be required to file them automatically, and not wait for a
      request from the grant monitor.

                                    - 87 -
                                                               APPENDIX XI



      In order to close this recommendation, please provide us with
      evidence that the grant progress report submission process has been
      standardized and improved.

11.   Resolved. The COPS Office concurred with our recommendation to
      increase monitoring to ensure grantee compliance with reporting
      requirements. The COPS Office developed a standardized progress
      report, which will be sent to all meth grantees on a semi-annual basis
      to monitor the progress of the project until its completion. In addition,
      the COPS Office is in the process of developing initial and secondary
      delinquency notification letters to send out to grantees who have failed
      to submit their required reports. In order to close this
      recommendation, please provide us with a listing of all awards open as
      of March 31, 2006, the dates the most recent progress report was due
      and received, the dates of their expected progress reports for the next
      two semi-annual periods, as well as the final report due date, if
      applicable, along with copies of the pro-forma delinquency notification
      letters.

12.   Resolved. The COPS Office concurred with our recommendation and
      stated that it will continue to enhance its dissemination of valuable
      meth-related information by posting at least one new Internet link or
      document on its website on a semi-annual basis, with special focus on
      information falling under the category of “best practices.” To close this
      recommendation, please provide us with information on who will be
      designated with these responsibilities and how this process will be
      monitored by the COPS Office to ensure it occurs.

13.   Resolved. The COPS Office concurred with our recommendation to
      remedy $365,639 remaining on hand in expired grants and stated it
      deobligated funds in seven of eight awards and granted an extension
      for the remaining grant. Based on our review of the supporting
      documentation provided for these grants, the COPS Office deobligated
      $295,558 in six awards and granted an extension for $65,627 in one
      instance. In the remaining grant, it appears the COPS Office allowed
      the grantee to draw down $4,454 in grant funds 13 months after the
      grant expired, without an extension. The OJP Financial Guide states
      that grantees must obligate funds prior to the grant expiration date
      and should request their final drawdown no more than 90 days after
      the grant-end date. During fieldwork, we reviewed this file and noted
      no documented contact in the grant file by the grant monitor in the 9
      months following grant expiration. In order to close this
      recommendation, please provide a written explanation, including

                                    - 88 -
                                                               APPENDIX XI


      supporting documentation, for allowing the grantee to draw down the
      $4,454. The explanation should include copies of any
      contemporaneous correspondence that discusses the drawdown.

14.   Resolved. The COPS Office concurred with our recommendation and
      stated that it has instituted an Expired Grant Policy to ensure the
      timely deobligation of grant funds. In order to close this
      recommendation, please provide us with: (a) a copy of the issued
      Expired Grant Policy; and (b) a listing of open expired grants as of
      March 31, 2006, and funds on hand as of that date. The listing should
      include grantee name, grant number, award end date, and its fund
      balance on that date. For expired grants over 90 days old with a
      remaining fund balance, please provide a description, along with any
      supporting documentation available, of the actions taken regarding
      deobligation.

15.   Resolved. The COPS Office concurred with our recommendation that
      minimum training standards for grant program specialists need to be
      identified and adhered to and that internal controls should be
      continually enhanced. According to its response, the COPS Office has
      developed a checklist for use by mentors during on-the-job training for
      grant program specialists. Further, the COPS Office stated that the
      Meth Team leadership has developed and disseminated a large number
      of guidance documents and written protocols to assist employees in
      their oversight and management of meth awards. Therefore, to close
      this recommendation, please provide the mentoring checklist that
      illustrates that the COPS Office has identified the minimum training
      standards for grant program specialists. In addition, please provide
      evidence that the body of guidance for Meth Team members is no
      longer maintained in an ad-hoc manner, has been centralized for easy
      reference, and has been provided to each member.

16.   Resolved. The COPS Office concurred with our recommendation and
      stated that it consults with outside agencies, including the DEA, and as
      necessary coordinates with Congress when grant applications do not
      appear warranted or are not consistent with the intent of the Meth
      Initiative. Our review noted that the COPS Office will work with an
      earmarked grantee to refocus its grant application in a direction more
      consistent with the Meth Initiative. However, the COPS Office did not
      consult with the DEA and did not review the earmarked proposals to
      determine if grants were warranted. COPS officials told us they do not
      believe they possess the same degree of control over earmarked funds
      that they do with discretionary grant funds. According to an official
      with the External Affairs Division, the COPS Office does not question

                                    - 89 -
                                                               APPENDIX XI


      the direction of Congress, including the grantees identified, the
      purpose of the programs indicated, or the amounts stipulated for
      earmarked entities. Therefore, as stated in our report, we believe the
      COPS Office does not strategically analyze or assess the necessity or
      benefit of awarding funds to the earmarked entities, or compare the
      congressionally identified projects to those of other entities. In order
      to close this recommendation, please provide us with documentation
      supporting that the DEA has been consulted regarding the proposals,
      and evidence of the COPS Office’s attempts to coordinate with
      Congress when grant applications do not appear to be warranted or
      consistent with the intent of the Meth Initiative.

17.   Resolved. The COPS Office concurred with our recommendation that
      information related to program effectiveness and outcomes, as well as
      meth-related statistics and research, should be disseminated to Meth
      Initiative grantees. The COPS Office stated that it will periodically
      review and evaluate the semi-annual progress reports and use this
      information to identify areas in need of improvement, and provide
      limited quantitative data of successful activities on its website. In
      addition, the program team will periodically review meth-related
      statistics to assess the growing needs of various populations for
      additional funding. In order to close this recommendation, please
      provide us with evidence that the COPS Office has reviewed,
      evaluated, and analyzed: (1) progress reports submitted by the grant
      recipients, (2) meth-related statistics provided by state and local law
      enforcement departments to EPIC, and (3) the contribution of grantee
      accomplishments towards the achievement of overall program goals.




                                    - 90 -
